<html>
<title> - REVIEW OF IMPLEMENTATION OF THE HEALTHY FOREST RESTORATION ACT OF 2003</title>
<body><pre>[Senate Hearing 108-688]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-688

 REVIEW OF IMPLEMENTATION OF THE HEALTHY FOREST RESTORATION ACT OF 2003

=======================================================================

                                HEARING

                               before the

    SUBCOMMITTEE ON FORESTRY, CONSERVATION, AND RURAL REVITALIZATION

                                 of the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION


                               __________

                             JUNE 24, 2004

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov

                           ______


                    U.S. Government Printing Office
94-732 PDF                Washington : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001




           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                  THAD COCHRAN, Mississippi, Chairman

RICHARD G. LUGAR, Indiana            TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            PATRICK J. LEAHY, Vermont
PAT ROBERTS, Kansas                  KENT CONRAD, North Dakota
PETER G. FITZGERALD, Illinois        THOMAS A. DASCHLE, South Dakota
SAXBY CHAMBLISS, Georgia             MAX BAUCUS, Montana
NORM COLEMAN, Minnesota              BLANCHE L. LINCOLN, Arkansas
MICHEAL D. CRAPO, Idaho              ZELL MILLER, Georgia
JAMES M. TALENT, Missouri            DEBBIE A. STABENOW, Michigan
ELIZABETH DOLE, North Carolina       E. BENJAMIN NELSON, Nebraska
CHARLES E. GRASSLEY, Iowa            MARK DAYTON, Minnesota

                 Hunt Shipman, Majority Staff Director

                David L. Johnson, Majority Chief Counsel

               Lance Kotschwar, Majority General Counsel

                      Robert E. Sturm, Chief Clerk

                Mark Halverson, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Review of Implementation of the Healthy Forest Restoration Act of 
  2003...........................................................    01

                              ----------                              

                        Thursday, June 24, 2004
                    STATEMENTS PRESENTED BY SENATORS

Cochran, Hon. Thad, a U.S. Senator from Mississippi, Chairman, 
  Committee on Agriculture, Nutrition, and Forestry..............    21
Crapo, Hon. Michael, a U.S. Senator from Idaho, Chairman, 
  Subcommittee on Forestry, Conservation, and Rural 
  Revitilization, Committee on 
  Agriculture, Nutrition, and Forestry...........................    01
Baucus, Hon. Max, a U.S. Senator from Montana....................    10
Coleman, Hon. Norm, a U.S. Senator from Minnesota................    03
Lincoln, Hon. Blanche, a U.S. Senator from Arkansas..............    08
Talent, Hon. James, a U.S. Senator from Missouri.................    12
                              ----------                              

                               WITNESSES
                                Panel I

Calvert, Chad, Deputy Assistant Secretary, Land and Minerals 
  Management, U.S. Department of the Interior, Washington, DC....    07
Rey, Mark, Under Secretary, National Resources and the 
  Environment, U.S. Department of Agriculture, Washington, DC....    05

                                Panel II

Cope, Robert, Commissioner, Lemhi County, Salmon, Idaho, 
  representing the National Association of Counties..............    28
Daly, Carol, President, Communities Committee and Member, Society 
  of American Foresters..........................................    30
Sledge, James, L., Jr., State Forester, Mississippi Forestry 
  Commission, 
  Jackson, Mississippi, representing the National Association of 
  State 
  Foresters......................................................    26

                               Panel III

Crouch, James R., Jim Crouch Associates, Russellville, Arkansas, 
  representing Ouachita Timber Purchasers Group, Ozark/St. 
  Francis 
  Renewable Resource Council, and the Lake States Federal Timber 
  Purchasers Group...............................................    37
Kennamer, James Earl, Senior Vice President of Conservation 
  Programs, National Wild Turkey Federation, Edgefield, South 
  Carolina.......................................................    40
Partin, Tom, President, American Forest Resource Council, 
  Portland, Oregon...............................................    38
                              ----------                              

                                APPENDIX

Prepared Statements:
    Rey, Mark and Chad Calvert...................................    50
    Cope, Robert.................................................    65
    Crouch, Jim..................................................    86
    Daly, Carol..................................................    82
    Kennamer, James Earl.........................................    97
    Partin, Tom..................................................    92
    Sledge, James L..............................................    60
Document(s) Submitted for the Record:
    Jeffrey Hardesty, Director, Global Fire Initiative the Nature 

      Conservancy................................................   108
    Gary Mast, President, National Association of 
      Conservation Districts.....................................   104


 
 REVIEW OF IMPLEMENTATION OF THE HEALTHY FOREST RESTORATION ACT OF 2003

                              ----------                              


                        THURSDAY, JUNE 24, 2004,

                                      U.S. Senate,,
         Subcommittee on Forestry, Conservation, and Rural 
Revitalization, of the Committee on Agriculture, Nutrition 
                                             and Forestry,,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:35 a.m., in 
room SD-562, Dirksen Senate Office Building, Hon. Michael 
Crapo, [Chairman of the Subcommittee], presiding.
    Present or Submitting a Statement: Senators Crapo, Cochran, 
Coleman, Talent, Lincoln, and Baucus.

  STATEMENT OF HON. MICHAEL CRAPO, A U.S. SENATOR FROM IDAHO, 
              CHAIRMAN, SUBCOMMITTEE ON FORESTRY, 
     CONSERVATION, AND RURAL REVITALIZATION, COMMITTEE ON 
              AGRICULTURE, NUTRITION, AND FORESTRY

    Senator Crapo. The hearing will come to order. This is a 
hearing of the Subcommittee on Forestry, Conservation, and 
Rural Revitalization. We are here today to review the 
implementation of the Healthy Forest Restoration Act. It has 
been nearly a year since the Committee held its first hearing 
on the act and over just 6 months since this important 
legislation was overwhelmingly enacted into law.
    There was and is a clear need for this legislation, and I 
am pleased that I was able to work with so many of my 
colleagues on this Committee and in the Senate in a bipartisan 
manner to get the much-needed bill through. Throughout the 
debate on this legislation, we talked about the wide scope of 
the problem: 190 million acres of Federal land at high risk to 
catastrophic wildfire; millions of trees being ravaged by 
insects and disease and that these are not geographically 
isolated problems. They are nationwide concerns, concerns that 
have a direct impact on neighboring lands.
    Despite the scope of that problem, some have the impression 
that with the passage of the Healthy Forest Restoration Act, we 
have solved the forest health crisis. This is an important step 
in the proper management of our forests, but it is not a silver 
bullet. The 2004 fire season is expected to be another 
difficult year. The drought facing our country continues to 
exacerbate the fire risks, and many States in the West are 
expected to have another above normal fire season.
    I raise this to make the point that we will have large 
fires this year, and we will have large destructive fires the 
year after and the year after that and the year after that. 
Addressing these threats is a long-term goal. I've also heard 
from many in my State who understand how large this crisis is 
and who are anxious to see projects in their communities and in 
their forests.
    We will get this straightened out here in a second. The 
authorities under this bill will help and are crucial to 
addressing the threats on private and public lands, but the 
bill will not be implemented overnight. Another point to keep 
in mind is that we were cautious in this bill not to override 
environmental laws. The agencies must continue to fully comply 
with the Endangered Species Act, the Historic Preservation Act 
and other applicable laws. Those of you with experience with 
the ESA know that it does not make any activity easy to 
implement.
    Given the hurdles, the agencies are making good progress in 
implementing this legislation. I appreciate the overall efforts 
on fuels reduction under this authority, under the Healthy 
Forest Initiative Authority, and the many projects that have 
been underway since before these authorities were provided. 
However, we, Congress and the public, must continue to pressure 
and oversee the agencies to ensure aggressive and proper 
implementation of all aspects of this bill.
    It has been my experience that the more open and inclusive 
the process, the more accepted it is by the public. With that 
philosophy in mind, I appreciate the efforts the agency have 
undertaken to collaborate with the public. I note the 
interagency Website that the agencies have developed to serve 
as an easily accessible clearinghouse of information for the 
public, and it is my hope that they will continue to place a 
priority on www.healthyforests.gov as an important link to the 
public.
    The role of the communities in addressing forest health 
cannot be understated. As such, I am pleased that one of our 
witnesses today is Commissioner Robert Cope from Lemhi County, 
Idaho. Commissioner Cope has been a leader in the Idaho State 
Fire Plan working group. That group has worked to get more and 
more Idaho categories to develop county wild land-urban 
interface fire mitigation plans. Somebody could make an acronym 
out of that one.
    These will be important in working with agencies on fuels 
reduction projects, and I am pleased that Idaho is a leader in 
identifying threats from wild land fires and creating local 
solutions. I appreciate your being here today, Commissioner 
Cope.
    I also want to commend the Society of American Foresters, 
the National Association of State Foresters, the National 
Association of Counties, the Western Governors Association and 
the Communities Committee of the Seventh American Forest 
Congress for their work in developing a handbook to guide local 
community efforts in developing their wildfire protection 
plans.
    Many of the groups that developed this plan are here today, 
and I want to take a moment to thank them for their leadership 
in the development of this handbook. I expect that this 
handbook will be a vital tool for communities looking to 
prepare for fire risks.
    I am pleased today to have Mark Rey, Under Secretary for 
Natural Resources and the Environment at the Department of 
Agriculture and Chad Calvert, Deputy Assistant Secretary for 
Land and Minerals Management at the Department of the Interior 
here to testify on the implementation of the Healthy Forest 
Restoration Act and the progress that they have made in 
implementing this act since it was signed into law last 
November or December, and I am particularly interested in 
hearing what progress has been made in managing the small 
diameter materials that come off of our forests.
    The growing loss of infrastructure is troubling, and I am 
curious about what is being done to help develop markets for 
this material. Following their testimony, we will hear from 
individuals representing those affected by this legislation. I 
look forward to their insight and will introduce them when we 
bring up their panels.
    I want to thank all of our witnesses for being here today, 
and I look forward to an informative hearing. Senator Lincoln, 
who is very interested in this hearing, will be here shortly, 
and when she does, we will interrupt and allow her to make any 
opening statement that she would like to make. I see that 
Senator Coleman is arriving, so, Senator, I am going to wrap up 
here in just a minute so you can get prepared for your opening 
statement if you would like.
    While Senator Coleman is taking his seat, let me just give 
a few instructions to the witnesses: you all should have 
received an instruction letter, and that letter should have 
indicated to you that we would like for you to keep your oral 
testimony to 5 minutes. We have a little machine here that 
counts down and tells you what your time is, and the red light 
starts blinking when your time has expired.
    I want to encourage you to pay attention to that, because 
we would like to have enough time to have dialog and give and 
take with the Senators who are here. I can assure you that if 
you are like most witnesses, your 5 minutes will expire before 
you have said what you want to say. Please be assured that we 
would like you to still wrap up and just conclude whatever 
thought you are on when your time expires, and we will have 
time for questions and answers, and if there are things that 
you did not get to say during your 5 minutes, you will have an 
opportunity during the question and answer period.
    Your written testimony is all a part of the record, so you 
do not need to worry about asking to make your written 
testimony a part of the record, and your written testimony is 
going to be very thoroughly and carefully reviewed, in fact, 
many of us have already read it.
    With that, Senator Coleman, do you have any opening 
statement?

 STATEMENT OF HON. NORM COLEMAN, A U.S. SENATOR FROM MINNESOTA

    Senator Coleman. Thank you, Mr. Chairman. I want to thank 
you for holding this hearing and for your leadership and also 
for the bipartisanship displayed by you and my very good 
friend, Senator Lincoln, with whom I have worked so closely on 
many farm bill-related issues. This critical legislation would 
not have ever happened, so thank you both for your strong 
leadership and for the spirit in which you have made all of 
this possible.
    I want to thank the members of the panel for appearing 
today to discuss the progress of this legislation. This Healthy 
Forest Restoration Act is a solid piece of legislation. It 
takes common sense steps to improving our nation's forests. At 
times, forest health is frequently described as a Western U.S. 
issue, but the reality is it is a concern to all of us and 
certainly a concern to me, because in my home State of 
Minnesota, we have two national forests, the Chippewa and the 
Superior. These forests span 5.8 million acres across 
Northeastern Minnesota.
    Over the past few years, Minnesota has seen its share of 
forest health problems. On July 4, 1999, heavy rain and 
straight line winds in excess of 90 miles per hour blew down 
trees and caused severe flooding over the more than 600 square 
miles of the Superior National Forest. In 2002, forest 
mortality exceeded net growth, and spruce budworm infestations 
have resulted in the death of one-third of the balsam fir in 
Minnesota.
    According to the Superior National Forest, the potential 
still exists for an extreme wildfire event in the blowdown 
areas that could threaten visitors and communities outside of 
the wilderness. These risks will reduce incrementally with the 
completion of prescribed burn units over the next several 
years. This brings me to an important point that I want to 
stress: the Healthy Forest Restoration Act will fix these 
problems over a period of many years rather than many months. 
It will take the coordination of local, State and Federal 
officials along with detailed planning and patience, but I know 
that everyone is up to the task.
    In Minnesota, we have seen many organizations continue to 
work together ever since the blowdown which we talked about in 
the Committee hearing of overwhelming magnitude. Folks have 
come together; they have developed strategies and tactics to 
prevent future disasters. This was originally possible because 
special exemptions were issued from the Council on 
Environmental Quality to work in high risk areas.
    The implementation of the Healthy Forest Restoration Act 
will continue to help reduce procedural delays to projects that 
reduce fire danger and address forest health problems. I am 
pleased that the legislation accomplishes this, and it does so 
in a way that involves the public throughout the process.
    The Healthy Forest Restoration Act will better enable 
forest managers across the country to prevent future disasters 
by removing barriers that discourage cooperation. The Superior 
National Forest has recently almost doubled their staff of 
experienced fire specialists and increased fire safety training 
for all its employees. They have worked aggressively to reduce 
fuels, first in the highest-risk urban interface areas; to 
integrate buffers by treating locations of concentrated 
blowdown fuel on National Forest lands to slow the spread of 
wildfire.
    Mr. Chairman, I would like to have my complete statement 
entered into the record, and I would just close by saying that 
the nation's forests are living systems, and we have to 
restore, manage and protect them. These principles will not 
only help to wildfires; they will ensure that we have clean air 
and water, quality fish and wildlife resources and strong 
communities for generations to come.
    I look forward to hearing from the panelists, for their 
views and suggestions. Again, thank you.
    Senator Crapo. Thank you very much, Senator Coleman, and 
your full statement will be made a part of the record.
    I should have said to the witnesses one last bit of 
instruction, and that is that if you are like me, sometimes, 
you will forget to pay attention to the clock, and if you get 
to going too far over, I will just slightly tap the gavel up 
here, and that should help you to remember to take a look at 
that clock.
    With that, we have already introduced our first panel, and 
Mr. Rey, why do you not begin?

STATEMENT OF MARK REY, UNDER SECRETARY, NATIONAL RESOURCES AND 
THE ENVIRONMENT, U.S. DEPARTMENT OF AGRICULTURE, WASHINGTON, DC

    Mr. Rey. Thank you, Mr. Chairman and thank you for the 
opportunity to testify on the administration's progress in 
implementing the Healthy Forest Restoration Act of 2003. 
President Bush signed this legislation just about 6 months ago 
on December 3, 2003, and we are all grateful for the swift 
action by the Congress, by this Committee under your leadership 
for the swift action in passing this important piece of 
legislation to provide the Federal agencies with additional 
tools to deal with wildfire risk.
    The Act complements administrative reforms that have been 
put into place under President Bush's Healthy Forest 
Initiative. These reforms facilitate hazardous fuel treatments 
and ecological restoration projects on Federal lands. The Act 
is also complemented by another important authority provided by 
Congress early last year to expand the use of stewardship 
contracting by both the Forest Service and the Bureau of Land 
Management.
    In the 7 months since Congress passed the Healthy Forest 
Restoration Act, the Departments have taken a number of actions 
to implement it, including issuing, in February of 2002, an 
interim field guide that was jointly prepared by the Forest 
Service and the Bureau of Land Management to assist Federal 
land managers to better understand what would be required to 
implement the Healthy Forest Restoration Act, and I will 
provide a copy of that field guide for the Committee's record 
for this hearing.
    We have also developed a variety of awareness and training 
tools for agency employees, including a Web-based Forest 
Service Internet site with overview training on the Healthy 
Forest Initiative and the Healthy Forest Restoration Act and 
other relevance information including on stewardship contracts, 
endangered species regulations, collaboration on multiparty 
monitoring, biomass information, and model environmental 
assessments.
    We have also made available to the public a wide variety of 
materials on the Healthy Forest Initiative and the Healthy 
Forest Restoration Act on the World Wide Web in the Website 
that you mentioned.
    Let me talk a little bit about what we are doing to 
implement each of the titles of the Healthy Forest Restoration 
Act. Title I provided us with expedited procedures to conduct 
fuels treatment work and forest restoration work on Federal 
lands administered by the Forest Service and the Bureau of Land 
Management. All of the implementing regulations and guidelines 
for Title I projects have been developed and sent to the field 
for review.
    Year-to-date, the Federal agencies have treated 88 percent 
of their target acres with a little over a quarter of the year 
left to go, so we will exceed the fuels reduction targets we 
set for ourselves this year, and at the end of the fiscal year, 
after all is said and done, we will have treated about 4 
million acres of Federally-managed forest and rangeland, and 
that will be an all-time record.
    Title II provides information and resources to help 
overcome barriers to the production and use of woody material 
produced on fuels reduction and forest restoration projects. 
Within the next couple of weeks, we will announce the results 
of the 2004 grant solicitation process for the Biomass Research 
and Development Act, which was modified by Section 201 of the 
Healthy Forest Restoration Act, and this action will generate a 
significant increase in woody biomass related research.
    The results of our ongoing research on the utilization of 
woody biomass are provided for you and some examples of new 
applications that I brought from our wood products laboratory 
in Madison, Wisconsin. The materials there are self-
explanatory. The filters you see there use juniper, which has 
very little other commercial value, but it turns out to be an 
excellent filtering agent in a variety of industrial 
applications.
    Title III authorizes the Forest Service to provide 
technical, financial and related assistance to private forest 
land owners aimed at expanding their forest stewardship 
capacities. The Forest Service is working with state foresters 
and Indian tribes to develop separate guidelines for the State 
Watershed Forestry Assistance Program and the Tribal Watershed 
Forestry Assistance Program.
    The Secretaries of Agriculture and Interior announced 
during a forest health conference in Little Rock, Arkansas, 2 
weeks ago the formation of a series of partnerships to help 
implement Title IV and other titles of the Healthy Forest 
Restoration Act in the southern United States. Among these are 
the Forest Service partnerships with southern universities and 
State forestry agencies to conduct two landscape scale applied 
research projects on the Ozark/St. Francis National Forest to 
address infestations of the southern pine beetle and the red 
oak borer, which threaten forest health in that region.
    The Natural Resources Conservation Service has been 
designated to administer the Healthy Forest Reserve Program 
authorized under Title V of the Healthy Forest Restoration Act, 
and the regulations implementing that title will be issued 
shortly. Finally, with regard to Title VI, the Forest Service 
has developed and published the Forest Early Warning System for 
forest health threats in the United States, which describes for 
the first time in one place the nation's system for identifying 
and responding to forest health threats, including Websites to 
obtain further information. I will provide a copy of the Early 
Warning System for the Committee's record at this hearing as 
well.
    In conclusion, we have been hard at work implementing all 
of the titles of the Healthy Forest Restoration Act, and with 
these new authorities, we will exceed the target we set for 
fuels reduction this year, which is the highest target and 
highest accomplishment that the Federal Government has ever 
maintained in this area.
    Thank you very much.
    [The prepared statement of Mr. Rey can be found in the 
appendix on page 50.]
    Senator Crapo. Thank you very much, Mr. Rey. We appreciate 
your work.
    Mr. Calvert.

          STATEMENT OF CHAD CALVERT, DEPUTY ASSISTANT 
         SECRETARY, LAND AND MINERALS MANAGEMENT, U.S. 
           DEPARTMENT OF THE INTERIOR, WASHINGTON, DC

    Mr. Calvert. Thank you.
    First, I want to thank the Subcommittee for the hard work 
on the Healthy Forest Restoration Act and particularly you, Mr. 
Chairman, for your leadership in getting that act through the 
Congress.
    I will just elaborate on what Mr. Rey has said and maybe go 
through some of BLM's particular accomplishments. With regard 
to training, following the issuance of the field guidance, the 
Department of the Interior put together a larger guidance 
document that is available on the Web to help field managers 
understand all of the tools that were contained not only in the 
Healthy Forest Restoration Act but the administrative tools 
from the Healthy Forest Initiative.
    We have had a series of satellite training seminars with 
all of the field managers; to date, more than 90 of the field 
managers have completed that training. We have also cooperated 
very closely with our Department's contracting officers, who 
have held a series of outreach meetings that have included 
community participants, the BLM and the contracting officers to 
help them walk through the process for putting together 
successful stewardship contracts. In fact, we had three of 
those in Idaho this year: one in Idaho Falls, one in Post Falls 
and one in Grangeville.
    The Department is also working to propose a woody biomass 
utilization rule that will allow an option for service 
contractors to remove woody biomass as a part of service 
contracts, where it is ecologically appropriate, and in 
accordance with the NEPA documents and the law, of course.
    With regard to Healthy Forest Restoration Act projects, our 
2005 project list was approved this spring, and the BLM expects 
to use the tools in the Healthy Forest Restoration Act on 
approximately 170 of those projects, covering around 90,000 
acres. As an update on our 2004 fuels projects accomplishments, 
for the Bureau of Land Management, we have so far completed to 
date 306,000 acres of treatments in non-WUI, which is around 70 
percent of our target for 2004 and have completed almost 
150,000 acres in the WUI, which is approximately 83 percent of 
the target, and I am proud to let you know that the State of 
Idaho is leading for the BLM on fuels treatments and has 
accomplished over 75 percent of their 2004 targets.
    I want to walk through a couple of the stewardship 
contracts, because that authority is something that the BLM 
really sees as being a key to the success of accomplishing 
fuels reduction. The BLM is prepared to let 37 contracts in 
2004 and has plans to clear and let an additional 70 contracts 
for 2005. There has been a lot of interest. The BLM is working 
to set up workshops with the Intertribal Timber Council to help 
tribes understand how they can become involved, and they are 
preparing supplemental guidance to address a series of issues 
that have arisen, particularly how to use forage, cheatgrass, 
things of this nature in stewardship contracts, how to improve 
on community collaboration, how to coordinate best with the 
Service First offices in the Forest Service and how to 
establish interagency agreements with local governments and 
tribes.
    A couple of the examples of BLM stewardship contracts, 
particularly in Idaho, which are of note is the Whiskey South 
project, which unfortunately has currently been protested and 
appealed, but it is approximately a 1,000 acre project in Idaho 
and would allow for harvest of up to 8 million board-feet as a 
part of the service contract. I believe the stewardship 
contract would accomplish roughly $1 million in ecological 
restoration at the same time. This project actually would 
return some additional money to the program in Idaho for new 
projects.
    A couple of projects that are underway for the rest of the 
summer that have been approved is one in the shrublands, which 
is something that is a little more peculiar to the Bureau of 
Land Management than the Forest Service, but it is over 1,000 
acres of mechanical treatment of juniper in the shrublands and 
will improve critical deer habitat among other things.
    In the Lemhi-Aspen Restoration Project, which is roughly 
1,000 acres over a couple of years for removing Douglas fir and 
juniper, and there, we have a really good partnership with the 
Rocky Mountain Elk Foundation, which is contributing some funds 
for that.
    In closing, the BLM, I just want to assure the 
Subcommittee, is deeply committed to an aggressive 
implementation of this act. We plan to work very closely with 
communities to develop community wildfire protection plans, and 
we think that's another key to the success of this.
    Senator Crapo. Well, thank you very much, Mr. Calvert. We 
appreciate both you and Mr. Rey and the efforts of your 
agencies for the implementation of this legislation.
    Before we begin questions, we have been joined by Senator 
Baucus and Senator Lincoln, and I would afford each of you an 
opportunity for an opening statement if you would like to make 
one at this time.

STATEMENT OF HON. BLANCHE LINCOLN, A U.S. SENATOR FROM ARKANSAS

    Senator Lincoln. Thank you so much. Is this working? I have 
it on. Here, let me get a little bit closer. These are big 
chairs.
    A special thanks to Chairman Crapo, who has done just an 
incredible job. I am proud to be here working with him to 
discuss the implementation of the Healthy Forest Restoration 
Act, which we both worked very, very hard on, and I can safely 
say not only was it something that I felt good about doing on 
behalf of Arkansans, but it was a delight to work with Senator 
Crapo. We came into the House together; we came into the Senate 
together, and he has been great to work with, and so, I thank 
you, Mr. Chairman for all of your hard work.
    Senator Crapo. Well, I return those same thoughts. We 
actually not only came into the House together; we ended up 
sitting beside each other in our first Committee assignment, so 
we have had quite a history of working together.
    Senator Lincoln. We have. It is a great friendship, and I 
am proud to be part of it.
    This was such an important piece of legislation that we 
have all worked closely on during the Congressional 
consideration, and I am also very proud to be here today to 
exercise our oversight responsibility and get an update on the 
progress of implementation. Follow-through for us is very, very 
important up here. Oftentimes within the Beltway, we get things 
done, and then unfortunately, we tend to lag in terms of 
review, and that is most important, and we are pleased that you 
are here to work with us from this panel and the other panels.
    Before I begin my very brief remarks, I also want to thank 
the panelists for your participation not only in today's 
hearing but in both the bringing about of the new Act and also 
its implementation. I am particularly pleased that we have with 
us before the Subcommittee today Mr. Jim Crouch of 
Russellville, Arkansas. Mr. Crouch is a tremendous help to me 
and my staff on the forestry issues with many, many years of 
experience in the field and great people in Arkansas that he 
can call on for expertise as well. I consider him a good 
friend, and I look forward to his testimony and appreciate his 
work.
    I also want to take this opportunity to publicly thank 
Under Secretary Mark Rey. He has, on more than one occasion, 
taken the time to sit down with me and my constituents to 
answer some of our questions, listen to our views, visit with 
us, help us walk through many, many issues, and I very much 
appreciate his generosity of time and his knowledge.
    I look forward to his testimony and getting to read it. I 
am sorry I missed it, but working with him, too, to ensure that 
implementing this new law is done in a timely and effective 
manner. We appreciate that working relationship, Mark.
    Mr. Rey. Thank you.
    Senator Lincoln. The Healthy Forest Restoration Act takes 
the necessary steps, we believe, to ensure that we can address 
the many problems affecting all of our nation's forests, both 
on public and private forest land. In southern and western 
forests and throughout both hardwood and pine ecosystems, this 
legislation was intended to correct the direction of forest 
legislation in our country.
    I was very proud to be joined in a bipartisan effort to 
ensure that the bill was passed and signed into law and look 
forward to in that same bipartisan effort being able to make 
sure it gets implemented with all of the good intents that we 
had.
    I believe that the important legislation focuses much-
needed attention on a number of extremely critical goals for 
our National Forest policy. One lesson that we learned over the 
years is that if we value our forests, and if we want to 
conserve our woodland resources, if we want to preserve their 
natural beauty, and if we want to ensure that the natural 
bounty of our forest land is available to future generations, 
then, it is important that we manage those lands and resources 
with a careful eye toward their long-term health.
    Now, the rest of these gentlemen, after we finished voting 
at 11 last night, probably went home and went to bed. I, 
however, went home and packed two trunks for two little boys 
who are going off to camp in the woods.
    [Laughter.]
    Senator Lincoln. As you may well know, many of us look at 
these projects and look at this legislation as something that 
is vital not only to our nation but to some of the ways of life 
that many of us grew up with and something we want to continue 
for future generations. Having spent much of my time growing up 
in the forests of Arkansas with my father and with my family, 
it is critically important that we recognize that in order to 
maintain and to have that sustainability for future 
generations, we must manage our forests correctly.
    For my State of Arkansas, I am very proud the legislation 
incorporated language to provide the Forest Service with the 
tools necessary to immediately address the epidemic of oak 
decline and mortality in the Ozark Highlands of Arkansas and 
Missouri. Just as our Western forests are under constant threat 
from fire, our Eastern forests are under constant threat from 
insect and disease.
    We cannot let any more time pass without ensuring that the 
Forest Service can quickly mitigate the effects of insect and 
disease damage throughout our forests before it reaches 
disaster proportion. The time has now come to implement these 
tools so that our forests, our rural economies and our 
environment can reap the benefit that we intended when we 
passed this legislation through Congress and that future 
generations can continue to enjoy the wonderful heritage that 
we have in this great land.
    Thank you, Mr. Chairman, for all of your hard work. I have 
a few questions for the panelists, and so, I appreciate very 
much your leadership on this issue.
    Senator Crapo. Well, thank you very much, Senator Lincoln, 
and I, too, want to commend you for your hard work on this 
legislation. It was our joint bill that became part of the 
ultimate vehicle that got to the President's desk, and I 
appreciated the opportunity to work with you, and it was that 
bipartisan effort that pushed this across the goal line.
    Senator Baucus.

   STATEMENT OF HON. MAX BAUCUS, A U.S. SENATOR FROM MONTANA

    Senator Baucus. Thank you, Mr. Chairman.
    I appreciate especially your calling this hearing, because 
I believe that follow-up and accountability and oversight is so 
very important. I know you and others have worked very hard to 
make this happen.
    Mr. Chairman, I believe strongly in what the Healthy Forest 
bill was supposed to do. It was supposed to give the Forest 
Service better tools to address the build-up of hazardous fuels 
in our forests. It was supposed to help the Forest Service 
protect homes and communities from catastrophic wildfires. I am 
still confident that this is what we accomplished, but I am 
concerned that we are a very long way from accomplishing our 
goal.
    Where are we today in implementing the Healthy Forest bill? 
I am very interested in hearing how the witnesses address this, 
because I have had great difficulty in tracking down specific 
information on how the Act is being implemented. How many acres 
have been treated under the authority of the Healthy Forest Act 
and where? How much money has been spent to implement the 
Healthy Forest Act? Is implementation going smoothly, or is it 
not?
    I was quite surprised when I learned that the Forest 
Service is not tracking or does not have available data on 
whether fuels reduction projects are being done under the 
authority of the Healthy Forest Act or under other authorities 
like a categorical exclusion or stewardship contract.
    It is a bit difficult for me to sit here and have a 
conversation with our witnesses when the Forest Service does 
not even know where, when and how its people are using the 
agency's new authority. I hope the witnesses prove me wrong, 
though, and can provide me with the specific data I am looking 
for.
    Last year, this bill was an imperative for the Forest 
Service, because we faced dangerous conditions in some areas of 
our National Forests due to population growth, drought, high 
fuel loads and other factors. The Forest Service told us they 
needed expedited authority to go in and thin areas suffering 
from insect infestation and disease, where fuel loadings were 
particularly higher near homes and watersheds.
    I and my colleagues agreed. We worked very hard working 
together on a bipartisan basis. We wanted to help the Forest 
Service protect our communities, protect our watersheds, reduce 
wildfire fighting costs and improve the overall health 
condition of our forests. We worked hard. We forged a 
compromise under the leadership of Senator Crapo and others to 
help make this happen.
    Yet while there has been a slight increase in the number of 
acres treated for fuels reduction in fiscal 2004 as compared 
with fiscal 2003; that is in my State of Montana, the number of 
acres treated is still very low. The total number of acres 
treated so far this year in Montana is about 44,000. Of that 
44,000, more than 30,000 were treated with prescribed fire, 
only about 12,000 treated mechanically through thinning or 
other treatments. That is for all nine National Forests in the 
State of Montana.
    In the Flathead, the scene of severe forest fires over the 
past few years, exactly zero acres were treated mechanically 
during this fiscal year, and only 250 acres were treated with 
prescribed burns. The Forest Service has the authority under 
the Healthy Forest bill to treat up to 20 million acres of high 
priority, at risk National Forest lands. $750 million new 
dollars were authorized to help pay for this.
    I am concerned about the progress and how the money is 
spent. I do understand there will be growing pains. Maybe I am 
missing something here, but this strikes me as part of a larger 
pattern of behavior at the Forest Service that has me very 
concerned. Given the urgency with which the Forest Service 
promoted Healthy Forest legislation last year, going so far as 
to tell us that even a 60-day delay for appeals and public 
comment between approval of a project and implementation could 
spell disaster for threatened communities, I am quite surprised 
that the agency has not hit the ground at full speed and has 
thrown all of its considerable expertise at aggressively using 
the Act to protect such threatened communities.
    Let me quote from a letter I received on June 15 of this 
year from a small mill timber task force member in the State of 
Montana. Quote, it has been over 1 year since our small mill 
task force met with you--that is, me--in Billings to discuss 
our needs for a sustainable Forest Service timber sale program 
in order for our businesses to survive. Now, one year later, we 
feel is an appropriate time to provide an update as to the 
status of our task force efforts to secure this necessary 
timber volume.
    As the volume report shows, the results to date have been 
extremely disappointing. Not only has industry worked with the 
Forest Service to help secure additional funding and political 
support for their timber sale program, but the agency was also 
provided with a whole new toolbox full of new tools with which 
to work in December 2003 with the passage of the Healthy Forest 
Restoration Act.
    It is not a good indication of progress that we are two-
thirds of the way through fiscal 2004, and the Forest Service 
has sold only 17 percent of their target sales volume; the 
availability of Forest Service saw log volume to support the 
eight remaining independent sawmills in Montana is less today 
than 1 year ago.
    Mr. Chairman, I have a long statement here. There are many 
more pages, and I am not going to give it all, but I will 
summarize by saying that I am disappointed based upon what I 
know thusfar. I do not think the Forest Service has done a very 
good job. There is something wrong up there. I do not know what 
it is, whether it is management, whether it is dollars or 
whether it is lack of mission, guidance.
    I do not know what it is, but they are not getting the job 
done that we all thought was going to get done, and I would 
just like to, as I said, find out why and what we can do about 
it, because after all, these are taxpayers' dollars we are 
talking about here. These are people in our States who are 
really very concerned about fires and the need for Healthy 
Forest legislation to pass, and it is up to all of us to make 
sure that what did pass is what people expected to pass and the 
results are what people expected.
    Thank you, Mr. Chairman.
    Senator Crapo. Thank you, Senator Baucus.
    Senator Talent.

  STATEMENT OF HON. JAMES TALENT, A U.S. SENATOR FROM MISSOURI

    Senator Talent. Thanks, Mr. Chairman.
    I appreciate the hearing being held. Just very briefly, we 
have 14 million acres of forest land in Missouri, most in the 
Mark Twain. The red oak borer is a major problem. Ms. Lincoln 
probably referred to it in her statement, and I was very 
pleased that Title IV of the legislation allows accelerated 
plans in dealing with these kinds of pests, and I am interested 
in knowing what we are doing to use that as expeditiously as 
possible.
    I have another hearing in Armed Services, and Senator 
Danforth's nomination is coming up on the floor, so I am not 
going to be able to stay.
    Senator Crapo. As a matter of fact, I suspect that the 
panelists would--let me just say, I am going to guess that 
there will be questions that you will get from us following the 
hearing as well, and we would like to ask all of the panelists 
to be prepared to respond to any questions that we may send you 
other than those that we discuss with you here during the 
hearing.
    We will proceed to the questions now at this point, and as 
I am sure is the case with all of the Senators here, I have a 
number of questions myself. We will go through a number of 5 
minute rounds until we get them all taken care of.
    Mr. Rey, I first have a question that actually does not 
deal directly with the Healthy Forest Act, but there are some 
issues that are particularly pressing right now as we approach 
fire season or are actually in fire season in many areas, and 
that is that I understand that with respect to forest fires, 
the Forest Service's initial attack success this year has even 
exceeded last year's.
    Given the current situation with the heavy tankers, that 
surprises me. Can you explain the situation?
    Mr. Rey. As we stood down the heavy tanker fleet for safety 
reasons following the report of the National Transportation 
Safety Board, we immediately moved to reconfigure our aviation 
fleet to replace the lost capacity from the heavy tankers, and 
we have completed that reconfiguration with the addition of 139 
different aircraft: heavy helicopters, medium and light lift 
helicopters as well as a larger component of single-engine 
tankers.
    The objective of the reconfiguration of the fleet was to 
continue to match the success we have had at initial attack at 
extinguishing fires at initial attack. So far, in Forest 
Service Region III, which is Arizona and New Mexico, where the 
fire season is at its peak right now, so far this year, our 
initial attack success exceeds our initial attack success year-
to-date last year in Arizona and New Mexico.
    We feel very good about what we have been able to achieve 
through replacement aircraft. At the same time, as the 
contractors of the heavy tankers have indicated that they felt 
that the National Transportation Safety Board study unfairly 
impugned the safety of their aircraft, we have offered them the 
opportunity, working with the Federal Aviation Administration, 
to see if we can certify their aircraft as airworthy. That 
effort is underway with the FAA, and we will move to complete 
that hopefully early next month, and if some of the heavy 
tankers can be certified as airworthy, we will put them back 
into service, because they are a more cost-effective asset, and 
then, we will stand down some of the replacement aircraft that 
we have contracted for to use otherwise.
    Either way, we feel confident that we will maintain a 98 
plus percent rate of success on extinguishing fires on initial 
attack.
    Senator Crapo. All right; thank you very much. I appreciate 
that. Now, I want to move to the Healthy Forest Act. Actually, 
this question can be answered by either or both of you, but in 
both of your testimony, you talked about your success to this 
point in meeting your targets and exceeding your targets. Could 
you correlate those numbers, the targets that you have set and 
your accomplishments to date and relate them to the authority 
in the act?
    What I am getting at is in the act, we authorized treatment 
of 20 million acres. We did not specifically set a time limit 
on that. Theoretically, you could do 20 million acres in 1 year 
if you were successful, if I understand the way we drafted the 
act. How are we in terms of getting toward that 20 million 
acres? I ask that in the context of the fact that we have 190 
million acres at risk.
    This act was really a first step. I almost consider it to 
be a pilot project to show how, if we can get these authorities 
in place and get successes on this 20 million acres, then, 
maybe we could expand these authorities to the other acreages.
    Could you relate to where we are on the 20 million acres in 
the context of your targets?
    Mr. Rey. Sure. We will at year end distinguish between 
projects that were conducted under the authority of the Healthy 
Forest Restoration Act and projects that were conducted under 
other administrative authorities or part of the Healthy Forest 
Initiative, and we will have to make that data split, because 
we have to account for what our progress is against that 20 
million acres.
    Right now, I would say that the majority of acres treated 
to date have been acres treated under the authority of the 
Healthy Forest Initiative with relatively fewer projects under 
the Healthy Forest Restoration Act authorities. There will be 
HFRA projects complete by the end of this year.
    Our rate of progress has to be evaluated in a broader 
perspective. I have read popular media coverage around the 
passage of the Healthy Forest Restoration Act where people were 
saying good, Congress passed a law. There are not going to be 
any more forest fires.
    Well, we know that is not true. I have read other coverage 
that said good, Congress passed a law. Now, within a fairly 
short period of time, we will deal with the fuels treatment 
problem. Unfortunately, that is not true, either. We have 190 
million acres at risk. This is a problem that has been 
developing for decades. We did not get into it overnight; we 
are not going to get out of it overnight.
    Of that 190 million acres, we believe that roughly 80 or 90 
million represent priority treatments. They are areas that have 
to be treated to protect communities or to protect ecological 
values. Last year, in fiscal year 2003, we treated 2.6 million 
acres. That was the highest level ever to that time. That is 
more than double the amount of acres that were treated in 2000.
    In 3 years, we doubled the size of this program. This year, 
as I indicated earlier, at the end of the year, we will hit 
about 4 million acres total, almost doubling it again, and we 
will hit that level, slightly higher, in 2005, doubling it 
twice within a 4-year span.
    Unfortunately, we are probably going to have to double the 
size of the program again to get to an average program of 8 
million acres a year, and when we get to that point, then, we 
will be at a level where within a decade, we will have this 
problem solved, but that is what it is going to take.
    It is not a problem that is going to be solved in one or 2 
years; it is going to be a problem that is going to take 10 or 
11 years to resolve, because if you are at 8 million acres a 
year, by 11 years out, you have 90 million acres worth of 
treatments completed.
    Senator Crapo. Thank you.
    My time has expired, but Mr. Calvert, if you want to 
respond.
    Mr. Calvert. I would just elaborate briefly on that to help 
understand the time line. As you know, our project lists that 
we put together for fuels reduction are developed with the 
State foresters and communities and done pursuant the Strategic 
Implementation Plan of the National Fire Plan. The 2004 project 
list was developed and approved in the spring of 2003.
    NEPA work was either underway or completed by December 2003 
for those projects, so the majority of the 2004 project list 
was already underway for its environmental planning when the 
Healthy Forest Restoration Act was passed. We are looking 
forward to using the Healthy Forest Restoration Act NEPA tools 
in our 2005 project list, and that is at least for the Bureau 
of Land Management, we plan to use that for about 170 of the 
projects for the next fiscal year.
    We will just leave it at that.
    Senator Crapo. All right; thank you very much.
    I did not see which of the two of you came in first. 
Senator Lincoln, you are next.
    Senator Lincoln. Thank you. Everybody knows, chivalry is 
not dead in the U.S. Senate.
    Gentlemen, we have worked desperately on this bill and in 
theory feel that we have produced something that is a good 
tool. We know that a tool is not good unless it is something 
that can be used in the field that actually gets the results 
that we aim for. Obviously, that is why we are here today.
    Mr. Rey, you know from the work that we have done on the 
Healthy Forest Act as well as your recent trips to Arkansas 
where my concerns have always centered, and that is around the 
insect damage that is devastating the forests in Arkansas. I 
guess my question is what are the tools here that we have given 
you that you feel like have made a measurable difference in 
helping you or helping the forest managers begin the process of 
dealing with this infestation? What are the best tools, what 
are the ones that exist that are not as productive as we had 
hoped, and why? Why are they not? Is it resources? What is our 
problem there?
    Mr. Rey. Well, I do not think that any of the tools that 
you have provided are unproductive. There is nothing in our 
experience in the first 6 months of implementation so far that 
we are prepared to come back to you and ask you to change.
    With regard to the work that we need to do on the Ozark-St. 
Francis and on the Ouachita National Forests and on national 
forests throughout the south to deal with insect and disease 
infestations, the two most useful tools that we found and 
utilized are the Title IV Accelerated Research Projects, two of 
which we announced 2 weeks ago in Little Rock and also the 
Stewardship Contracting Authority, which we also announced in 
Little Rock, a stewardship contract that we are doing with the 
Nature Conservancy on the Arkansas National Forests.
    For insects and disease specifically, those two tools are 
going to prove the most useful. I imagine as we get further 
along, we are going to find that we will do some work related 
to insects and diseases using the Title I authority. Outside of 
the Healthy Forest Restoration Act but as part of the Healthy 
Forest Initiative, we have done a lot of insect disease and 
sanitation work using the categorical exclusions that we 
developed a year ago this past May.
    Senator Lincoln. Well, definitely, we felt like the 
categorical exclusions and exemptions would be helpful in 
accelerating some of the things that we wanted to see happen.
    I guess my question, and again, my attitude in what we do 
here is that legislation is not a work of art; it is a work in 
progress, and that is why it is so important for us to have 
these types of hearings to understand better what we have given 
you in terms of tools and what works and what does not.
    Some of the concerns that we have had is the ASQ that we 
have as well in our forests and why we are not meeting those 
ASQs.
    Mr. Rey. The ASQ stands for allowable sales quantity, which 
is a measure of how much commercial timber that a forest can 
produce while still meeting other land management objectives. I 
would say that there are a number of reasons why some forests 
are falling short of their allowable sale quantity. Probably 
the most significant is just the time and effort it takes to 
produce a commercial timber sale. Senator Baucus noted that so 
far, the National Forests in Montana have met only 17 percent 
of their timber sale target this year.
    That is a little bit deceiving, because typically, the 
majority of our commercial timber sale offerings are produced 
in the last quarter of the fiscal year, so I do not know that 
they will get to 100 percent, but I know they are going to be a 
lot higher than 17 percent----
    Senator Lincoln. Why is that?
    Mr. Rey [continuing]. At year's end.
    Simply because it takes that much time to get the paperwork 
done to produce the sale and to put it through the public 
comment period and the appeals process, and usually, we end up 
bunched up at the end of the year. We are trying to level that 
a bit, because a lot of our timber purchasers would like to 
have a more even flow of timber during the course of the year, 
and that is one of the objectives.
    That is, however, I would clarify a somewhat different 
program than the Healthy Forest program. There is some measure 
of commercial timber coming off the land as a result of these 
fuels treatment projects, but the allowable sale quantity and 
the commercial timber sale program are supposed to be and are 
measured separately. I would say we are doing better on our 
fuels treatment work right now proportionately than we are on 
the commercial timber sales program.
    Senator Lincoln. I guess my question is is does one take 
away from the other? Certainly, we can do both of these 
activities at the same time through the Forest Service and 
that's what we have seen with the allowable sale quantity in 
Arkansas is that in previous years, we have met some of those 
ASQs, and for this year and I guess last year, we have not been 
able to meet those.
    Our objective is to be able to do all of the tasks that we 
have in different agencies, and we want to make sure and we 
want to know that if one is distracting from the other, that is 
an important thing for us to know and to figure out how we 
remedy.
    Mr. Rey. It is not supposed to.
    Senator Lincoln. Right.
    Mr. Rey. One is not supposed to substitute for or distract 
from the other. One of our challenges at year-end will be to 
look back across this year, the first year with the Healthy 
Forest Restoration Act and the first full year with the Healthy 
Forest Initiative tools and evaluate whether in fact there was 
a diversion of effort from one program to the other, and if 
there is, then, we will have to take steps to avoid that.
    Senator Lincoln. Well, the hope is that they would 
complement one another, and if we can implement them in that 
way, we hope that that will happen.
    Mr. Chairman, I have other questions, but I will submit 
them. Thank you very much.
    Senator Crapo. We will also have additional rounds. We will 
try to stick to 5 minutes each round, but we will do as many 
rounds as we can do.
    Senator Baucus. Thank you, Mr. Chairman.
    Mr. Secretary, I am speaking more out of a sense of 
constructive comments, because we all want the Forest Service 
to do a good job. We have a special sympathy and almost 
reverence for the Forest Service in my State because, after 
all, we have so much National Forest Service land in Montana, 
and Region I is headquartered in Missoula, Montana. I have 
known many Forest Service personnel, some retired, who are just 
wonderful people. They care about their jobs and care about the 
land and have done just an absolutely terrific job.
    I have to be honest in saying over the years, I just do not 
sense the same kind of caliber and focus on mission. A few 
years ago, I walked around the Forest Service, just went to the 
Region I headquarters just to find out what I could. I found a 
very low morale, a very low morale because there is no--they 
did not know what their mission was. It was just changing all 
the time. They just did not know what they were supposed to be 
doing.
    Now, that may have changed a bit now; I do not know. That 
admittedly was several years ago. Hopefully, that has changed. 
Over the years, I have just had a devil of a time with the 
Forest Service trying to get them to do something. It is like a 
huge bureaucracy, like punching a mattress; thud, nothing 
happens. I have been doing this for years and years and years.
    I said I was not going to complete my statement; I am not 
going to ask any questions, so I am going to complete my 
statement in the time I have allotted just to give you a sense 
of some of the problems that we have encountered with a view 
toward trying to solve them. These are not helpful, that is, 
these problems. I hope people are going to be helpful, but it 
is certainly not helping a lot of people.
    For example, I recently learned that the Forest Service is 
spending a considerable amount of time and money to reorganize. 
This reorganization, I have learned, will result in the loss of 
more than 30 jobs at the Forest Service office in Libby, 
Montana alone, and those are good, high-paid jobs, but they 
will be gone. The Forest Service is spending a lot of time and 
energy reorganizing, which leads one to conclude, well, why are 
they not spending time and energy doing their job, their 
mission, whether it is categorical exclusions or whether it is 
Healthy Forest Act or whatever it might be.
    These jobs eventually would move to yet to be determined 
call centers or service centers in some centralized location. 
This has not been noted in the public. This is something that 
we just found out, and the county commissioners let us know. It 
is something the Forest Service has not broadcast very much at 
all. Seemingly, it is a little embarrassed about it.
    I personally cannot see how gutting field offices, that is, 
people on the ground working with folks in the timber industry 
and the conservation community, that is, people on the front 
lines of managing our forest is going to improve customer 
service. I do not see the point of a call center. Who knows 
where? Bangladesh? I do not know where the call center is going 
to be. It does not seem to make a lot of sense.
    I just don't see any cost-benefit analysis on this or any 
evaluation of how such reorganization is going to really 
enhance the agency's mission to help people on the ground.
    Then, we have, as has been referred to, the Forest 
Service's recent decision to ground an entire heavy air tanker 
fleet, including Neptune in Missoula, Montana, in response to 
the NTSB's recommendation issued at the end of April of this 
year. I must say that even though NTSB's safety recommendation 
was directed at the entire firefighting fleet, entire fleet, 
all planes in the Forest Service to ensure safety, the Forest 
Service determined that it should just ground air tankers, one 
segment, not all, just one segment, air tankers, including 
responsible operators with no safety blemishes on their record, 
like Neptune, in Missoula, Montana.
    Moreover, this decision was made after the fire season had 
already started and after operators like Neptune had already 
invested millions to prepare and after Neptune, for example, 
had purchased two new planes last fall at the request of the 
Forest Service.
    I understand the NTSB's report was issued at the end of 
April. The NTSB informs me that they were in constant contact 
with the Forest Service during preparation of their report and 
the recommendation, constant contact over the last 2 years with 
the Forest Service. The Forest Service knew what was coming, 
and that the Forest Service was very aware of what kind of 
recommendation the NTSB was going to make.
    I agree 100 percent that the safety of pilots, crews and 
people on the ground should be our No. 1 concern. That is 
clear. I am also concerned about the abrupt nature of this 
decision and the unprofessional and shabby way that good, 
responsible operators like Neptune that have served Montana and 
the Nation over the years have been treated.
    Neither Neptune nor the type of plane that Neptune operates 
were the subject of the NTSB investigation that led to the NTSB 
safety recommendation on April 23. I ask, would it have been so 
difficult to evaluate the safety and airworthiness of air 
tankers like Neptune prior to the canceling of their contracts 
rather than more than a month later, as these companies ran out 
of operating capital and were faced with laying off their 
employees and closing their doors?
    Neptune provides nearly 100 good-paying jobs in Missoula. 
To date, I have not received an adequate response or 
explanation from the Forest Service outlining their decision. I 
have spent a lot of time on this, as you well know. I have 
talked to you one or two times. I have talked to the chief. I 
have talked to lots of people about this, trying to straighten 
this out. So far, I have received virtually no response of any 
value.
    I am going to hand-deliver a letter to Chief Bosworth in 
about 15 minutes this morning with my unanswered questions 
clearly listed, and I hope that this time, we finally can get 
some answers.
    The Forest Service also will spend upwards of $40 million 
this year in an attempt to replace the capacity and function of 
the heavy air tanker fleet. Now, you have mentioned--you were 
referring to tankers; you did not mention how much more costly 
that is going to be. It is my understanding, is it about $40 
million that it is going to cost. That is the transfer.
    I am asking where is the money going to come from? I have 
been told that because the air tanker fleet is grounded, in 
addition, helicopter logging operations are stranded for lack 
of helicopters. There are several folks in Montana who have 
decked out their timber, but they cannot get helicopters now, 
and their concern is because of this.
    In addition, I might point out that I have recently come 
across a June 2, 2004, General Accounting Office report that 
outlines the damage being done to the Forest Service programs 
by the repeated practice of borrowing from other accounts to 
pay for fire suppression costs and then failing to adequately 
reimburse those programs, even though money is returned to the 
agency by the Congress.
    Every time we in Congress attempt to assist the agency with 
a long-term solution, our efforts are shot down by officials at 
OMB or others in the Forest Service, and this practice of 
borrowing from other accounts to pay for fire suppression has 
had a direct impact on my State, resulting in delayed and 
canceled contracts, deferred post-fire rehabilitation and 
generally undermining core Forest Service programs.
    For example, the June 2 GAO report specifically referred to 
an example in the Bitterroot National Forest in my State, where 
$1.2 million needed to stabilize a road was transferred to pay 
for fire costs. OK; there was a fire. Two years later, the 
project received only $430,000, less than half of what it had 
originally been allocated, even though Congress had reimbursed 
the Forest Service for at least 80 percent of its additional 
expenditures to fight fires.
    The road is still collapsing. Sediment continues to run 
into a nearby stream, degrading fish habitat.
    Finally, I have been pushing the Forest Service for years 
to reinstate a categorical exclusion for small timber sales 
that have a negligible environmental impact. The Service 
finally issued several new categorical exclusions for various 
purposes, including small timber sales of different types last 
year. I have recently been informed that the Forest Service has 
completed precisely one project in Region I in this fiscal year 
using this categorical exclusion, only one. That is totally 
unacceptable. This useful Forest Service tool is rusting in the 
agency's tool kit along with many others.
    I hope you are seeing the same pattern here that I am; that 
is, the cumulative impacts of many actions and decisions by the 
Forest Service that are having a direct negative effect on the 
economy and health of my State, and I would guess it is 
probably occurring in other States, and frankly, I have about 
had it.
    I want to believe in the Forest Service. My default view is 
they are a good agency. They are a good resource agency. I have 
to tell you, Mr. Secretary, that I have also got to look at the 
facts, look at the evidence, and over time, I see bureaucratic 
lethargy. I see a sclerosis in the Forest Service. I don't see 
them performing their job. I see a lot of obfuscation. I see a 
lot of double talk.
    I don't get direct straight talk and answers. I have had 
it, frankly, I have had it. I am not one to let things go by 
the wayside. We are going to do something about this, and the 
far better way to do something about this is for the agency to 
shape up and do what it is supposed to be doing.
    I am sure that you have some answers to some of the points 
I have made, but I am also sure that those are only partial 
answers. They are not answers that are going to get to the core 
of the problem. For example, you mentioned just recently how 
well you are doing on the attack response--I forgot what the 
phrase is--but the fact is that that is not a very fair 
statement. It is a misleading statement. Why? Because most of 
the fires last year in the area of the country that you talked 
about were man-made. There are virtually no man-made fires so 
far this year. Anyway, I have that straight.
    The number of man-made fires is way down this year, which 
means that the severity of fires is lower, and so, you are 
comparing apples with oranges when you are trying to compare 
your initial attack success this year with prior years. It is 
just not a fair comparison.
    I am not here to create an argument. I know you have your 
points, and I deeply regret; this is very unfair that I have to 
go talk to the chief now, so I cannot stay here and answer all 
of your questions, but I hope you get the import and the tone 
of what I am trying to say, which is constructive.
    I am not trying to badger you for the sake of badgering. I 
am trying to ask tough questions for the sake of getting good 
results for the people of our State and our country.
    Mr. Rey. I will spit out as many answers as I can before 
you have to leave.
    Senator Baucus. Well, we can always have another meeting. I 
invite you to come to my office.
    Mr. Rey. OK; let us do that.
    Senator Baucus. After the recess and with straight answers, 
not a bunch of stuff.
    Mr. Rey. Let us do that.
    Let me just start with morale, because what I would invite 
you to do is to walk through the Region I office in Missoula 
today, because you are going to find a lot more motivated and a 
lot more excited people----
    Senator Baucus. I will do that. I will be in Missoula this 
next week, and I will do that.
    Mr. Rey [continuing]. Led by a brand new regional forester 
who is one of our most talented people.
    In late January, all of our forest supervisors met to talk 
about the implementation of the Healthy Forest Restoration Act, 
and the charge I left with them was the success in implementing 
this act is what is going to measure their success during their 
professional tenure. They are going to be judged on the basis 
of how well they do in implementing this act.
    After I left, all 153 or so of the forest supervisors 
signed a pledge to meet or exceed their fuels reduction 
targets, which is the path that they are on this year. We are 
at roughly 90 percent achievement so far this fiscal year with 
a quarter left. With regard to reorganization, the principal 
reorganization effort we have underway is to reorganize our 
financial systems to bring them up to 21st Century financial 
systems so that we can continue to achieve clean audits.
    We have had two clean audits, the first two in the Forest 
Service's history each of the last two fiscal years. 
Consolidating that financial accounting function will save the 
agency about $50 million a year, money that can then be used 
for on the ground work.
    Senator Baucus. This is not a good way to run a railroad, 
Mr. Secretary. I do apologize. I do not think you want me to 
keep your boss waiting.
    Mr. Rey. OK.
    Senator Baucus. I was supposed to meet with him 20 minutes 
ago, and he has to leave at 11. You want me to go meet with 
your boss. That is my guess. If that is incorrect, I would like 
for you to tell me.
    Mr. Rey. Well, the only thing that is inaccurate is that I 
am actually his boss but----
    [Laughter.]
    Mr. Rey [continuing]. I would prefer----
    Senator Baucus. Well, that is all right. You are right.
    [Laughter.]
    Mr. Rey. I would prefer that you meet with the Chief, and 
he can continue to respond.
    Senator Baucus. Do you want me to meet with the Chief?
    Mr. Rey. Yes.
    Senator Baucus. Thank you. I apologize.
    Mr. Rey. We will talk again.
    Senator Baucus. I do apologize.
    Senator Crapo. Thank you very much.
    We have been joined now by our Chairman, Chairman Cochran.
    Senator would you like to make an opening statement?

      STATEMENT OF HON. THAD COCHRAN, A U.S. SENATOR FROM 
MISSISSIPPI, CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Senator Chafee. Mr. Chairman, thank you. I appreciate your 
conducting the hearing. The Subcommittee is very interested to 
find out how we are succeeding and moving toward implementation 
of the Healthy Forest Initiative. We appreciate the leadership 
Secretary Rey has shown and others in the administration, 
Secretary Veneman as well. We thank you for your hard work and 
your efforts to help make sure this legislation turns out to be 
successful in practice, as it is in theory.
    We look forward to working with you and trying also to help 
make sure that we get the funds appropriated so that you can 
carry out the responsibilities under this act to the fullest 
extent possible.
    Thank you, Mr. Chairman.
    Senator Crapo. Thank you very much, Mr. Chairman.
    The Chairman points out a very important point, and there 
is a lot of concern about the shifting around of funds in the 
budget and so forth, but that a big part of the responsibility 
there lays right here in Congress with the way that we have 
been forcing the agency to deal with these funding shortfalls 
in fighting fires as well as with OMB and some of the other 
more global budgeting issues that we have here in Washington, 
and we need to pay attention to that as well.
    Senator Cochran, would you like to ask questions at this 
point?
    Senator Chafee. Mr. Chairman, I have a statement that I 
would like to have printed in the record, and it touches on 
some of the issues that we need to address, but I know you have 
other panels of witnesses, and I do not want to unnecessarily 
delay them, since one of them is from my State.
    Senator Crapo. Well, I have a few more questions of this 
panel. Let me just go back to a couple of my questions, and I 
will keep them brief.
    I actually have a bunch of questions, and I will just ask a 
few of them and then submit the others and see if you can 
respond to those in writing after the hearing.
    One of the questions that I had followed up on my first 
series of questions. My first series, if you will recall, 
talked about the targets and the 20 million acres and where we 
are in that whole process. Then, Senator Lincoln, in her 
questioning, started getting into the area of commercial timber 
activity as well, and we realize that the Healthy Forest Act 
was focused on fuels treatment and on not on the commercial 
side of things but on the fuels treatment side of things, if I 
got the terminology correct there.
    The question I have there is whether--well, I am referring 
to a portion of your testimony, Mr. Rey, toward the end where 
you talk about the fact that although we recognize that the 
Healthy Forest Initiative and the Healthy Forest Restoration 
authorities are helping to restore the forests and the 
ecosystems, we also need to recognize that much of the woody 
material removed is below merchantable size and is expensive to 
treat, and we need to get the public's understanding that it is 
OK to do mechanical treatment that removes merchantable trees.
    It is my understanding that we can remove fuels 
commercially--in commercial activity, we can engage in 
management activities that in and of themselves are going to be 
helpful in terms of maintaining healthy forests and dealing 
with the companion objectives of fuels treatment and the like. 
Could you address that?
    Mr. Rey. Sure. The way we have tried to express this 
initiative and its relationship to the production of commercial 
materials is the objective of the Healthy Forest Initiative and 
Healthy Forest Restoration products go to the kinds of forests 
we want to leave behind, so that we leave behind a healthy, 
resilient, fire-resistant forest where fire can play a natural 
role.
    That is the primary objective. Now, in achieving that 
objective, some of the material that we are going to remove is 
going to be noncommercial; in fact, much of it, perhaps most of 
it is going to be noncommercial. Some of it is going to have 
commercial value. There are going to be big enough trees so 
that they could be put to some commercial use. It is our view 
as well that those uses ought to be achieved.
    The wood ought to be used for commercial purposes, because 
the alternative is to waste it, which is the antithesis of 
conservation. The Healthy Forest Initiative will produce some 
amount of commercial material. It is not the primary objective 
of the initiative, but it is a result of the initiative, and 
that material will hopefully be put to good use in the form of 
sawn lumber or other wood products.
    Senator Crapo. I want to get into that in a minute, but the 
reverse is also true, is it not, that when we have purely 
commercial sales, those sales can be done in a way that will 
achieve the objectives of forest management and fuels reduction 
and protection against forest fire.
    Mr. Rey. Sure, and the design of commercial sales is such 
that we try to make sure that we do not increase fire risk or 
diminish the sustainability or the health of the forest.
    Senator Crapo. All right; like I say, I have a bunch of 
issues that I want to go through with you, but I am just going 
to talk about two more, and then, we will move on. The first 
one is that the way that the Act was written really focuses on 
public involvement. I just want to ask each of you first of all 
to recommit--to commit your understanding of that fact and the 
importance of engaging in the collaborative process that we 
contemplated in the Act and then maybe to indicate how you 
intend to make sure that we accomplish that objective of the 
Act.
    Mr. Calvert. Well at least for the Bureau of Land 
Management, the Forest Service had some experience with 
stewardship contracting. The BLM has recognized that there is a 
lack of uniform guidance among the field offices of how they 
should reach out to communities and involve communities in not 
only community protection plans but in a whole array of fuels 
reduction activities occurring on Federal lands outside of 
their WUIs.
    The BLM is preparing some additional guidance that should 
be ready for review this summer, and we are engaged in a 
process of talking with field offices, trying to figure out 
what best practices are, looking for some models of successful 
collaboration. The agency is also reaching out to the tribes 
pretty aggressively and trying to work out a way to engage in 
interagency agreements with them to carry out fuels reduction 
projects.
    Senator Crapo. Thank you, Mr. Calvert.
    Mr. Rey. The thrust of what the Healthy Forest Restoration 
Act does is to set forth procedures that involve the public 
earlier in our decision-making processes in a way that 
encourages open dialog and collaboration as opposed to what had 
become more commonly a later more adversarial process.
    Consequently, as we are designing these projects, our field 
officers are working with people a lot earlier and working with 
them through the development of the process. The changed 
appeals regulations that apply to Healthy Forest Restoration 
Act projects front-load the public involvement that is 
associated with the projects as well, and then, last, there are 
provisions in the bill for collaborative monitoring or third-
party monitoring by individuals who want to oversee how the 
effects of some of these projects play out on the ground, and 
we have started to develop some of those monitoring programs as 
well.
    As Mr. Calvert indicated, the stewardship contracting 
process by its nature brings other people into the 
decisionmaking process because the contractors with whom we are 
contracting are in many cases not for profit organizations like 
the Nature Conservancy and other groups who have come forward 
to work with us in developing these stewardship contracts.
    Senator Crapo. All right; thank you.
    Actually, I do have two more questions, not just one more. 
The first one is more of just a quick one. It can be a real 
quick response, and that is I have been advised from the Forest 
Service supervisors and regional foresters that my office has 
been in contact with that they are very pleased with the 
Healthy Forest Act authority, and one of the real bright spots 
is the potential to get past the litigation, which you will 
recall was one of the big debate points as we debated the Act.
    Have we seen that playing out? Are we able to see already 
results there of the streamlining that we were seeking to 
achieve?
    Mr. Rey. Yes, but I do not think we have enough data to 
quantify that for you.
    There are examples throughout the system where we have 
worked with local environmental groups to design projects using 
the procedures under this Act where the projects might 
otherwise have been appealed and litigated and were not 
appealed and litigated. I have numerous examples anecdotally 
from our forest supervisors and regional foresters.
    As we get a little further into this and we compile 
statistics on appeals and litigation and compare these projects 
to other agency projects, we will have a better sense of what 
the quantitative difference is, but qualitatively there has 
been a difference in the dialog and somewhat less litigation 
and appeals on these projects.
    I would also note that our Department of Justice and Office 
of General Counsel are on a winning streak right now, and they 
have won a fair number of lawsuits, and maybe that is having 
some effect as well.
    Senator Crapo. Good.
    Then, last question here is you have provided--I cannot 
remember which one of you provided this.
    Mr. Rey. That would be from us.
    Senator Crapo. The Forest Service. These are some of the 
products that are coming off of the thinning that we are doing 
for our fuels management, and they are very creative products. 
I will share those with our Chairman to look at as well. I 
could have brought some from my office-if I had known you were 
bringing some-that some folks in Idaho have shown me that they 
are making.
    This is a very important part of what we are talking about 
here, because as we try to make the commercial aspect of the 
thinning viable, as we try to develop these different 
approaches to what we do with the biomass once we go in and 
thin the forests, it is very critical to make sure that these 
kinds of products or whatever else can come out of it are 
utilized and that industries can develop around them.
    Frankly, the experience that we have seen so far with the 
Idaho companies that have been trying to do this has been 
frustrating, primarily because it is difficult, often--in a lot 
of these cases, the products are designed for reuse in the 
forest or for use in some other aspect of Federal contracting, 
and we do not seem--I know there is an Executive Order on this, 
but we do not seem to be able to get the Federal contracting 
authorities focused on changing their rules or procedures or 
whatever it is to start utilizing these types of products, and 
I would just like to ask both of you to talk about whether you 
understand this issue and what we can do to get past this 
point.
    We have companies that are willing to do some really 
creative things with these products, with this material, this 
biomass material, but once they do it, they just cannot seem to 
get broken through into the Federal contracting system for that 
part of the issue.
    Mr. Rey. That is a problem that the Congress addressed in 
the 2002 Farm bill legislation with a responsibility that was 
assigned to the Department of Agriculture to develop a 
Government-wide set of bio-based procurement regulations. Those 
regulations are either out for public comment now or soon to be 
out for public comment, and that will be a fairly long and 
complicated rulemaking, because every agency will have its own 
views, every Department will have its own views about what we 
are suggesting by way of procedures for bio-based procurement.
    I am not personally involved in that effort, but if you 
want, I can ask Keith Collins, the Department's chief 
economist, who is actually leading the Department's rule 
writing team, to contact your office and give you a more 
detailed briefing on where they are with the regulations. It is 
a problem, one that the Congress identified, one that we are 
responding to.
    Senator Crapo. I would appreciate that, if you would have 
him contact my office, because first, there was an Executive 
Order on this, and then, you are right: you reminded me that we 
put it into law in the Farm bill, and I still do not see it 
happening. I hope that those that are working on those regs 
will put somewhere in those regs in bold that we really mean it 
and that we intend to see this approach work.
    Anyway, I appreciate that, and I would appreciate your 
passing that message along to them.
    Last comment, and then, we will excuse this panel: Mr. Rey, 
I know that as a result of the timing and Senator Baucus having 
to leave, you were unable to respond, as I am sure you would 
have liked to have had the opportunity to do so. I know that 
you will have an opportunity to meet with Senator Baucus 
personally, but if you would like to prepare a response to any 
of the issues that he raised and have that be made a part of 
the record, I would be glad to allow that to be put into the 
record.
    Mr. Rey. That would be fine, or I will just meet with the 
Senator separately.
    The only thing I wanted to clarify on initial attack 
suppression numbers, I was using all fires, and I do not think 
there is a distinction between man-caused or naturally caused 
fires, but in the two States that are in the peak of the fire 
season right now, the fact is we are having more ignitions this 
year, and we are having more success on initial attack than we 
did last year.
    Senator Crapo. All right; thank you very much, and I would 
like to thank both of you for your time and attention to these 
issues and frankly for your work in helping this Act be 
effective.
    Mr. Rey. Thank you.
    Senator Crapo. Thank you very much.
    Senator Crapo. We will excuse our first panel, and we will 
move now to our second panel. While our second panel is coming 
forward, I will introduce them. Our second panel is made up of 
Mr. James L. Sledge, our state forester from the Mississippi 
Forestry Commission, representing the National Association of 
State Foresters; also, the Hon. Robert Cope, Commissioner for 
Lemhi County in Idaho, representing the National Association of 
Counties; and Carol Daly, President of the Communities 
Committee of the Seventh American Forest Congress. She is from 
Montana, representing the Society of American Foresters and the 
Communities Committee.
    I would like to remind our witnesses to try to pay 
attention to that little clock right there, because we tend to 
get way out of time if we do not do that, and we will start out 
in the order that I introduced you. Mr. Sledge, you may begin.

      STATEMENT OF JAMES L. SLEDGE, JR., STATE FORESTER, 
           MISSISSIPPI FORESTRY COMMISSION, JACKSON, 
  MISSISSIPPI, REPRESENTING THE NATIONAL ASSOCIATION OF STATE 
                           FORESTERS

    Mr. Sledge. Thank you very much. I will try to stay within 
the time. My only problem is I do not speak very fast, so it 
may seem like I have talked longer than I have.
    We appreciate the opportunity to testify before the 
Subcommittee, and I have to make one small side comment: among 
the people listed to testify today, there are three of us from 
Mississippi State University.
    Senator Crapo. Duly noted.
    Mr. Sledge. State foresters manage and protect State and 
private forests which make up two thirds of the nation's 
forests. The six titles of this Act will help improve forest 
health on all forest land ownership, and we appreciate your 
work to enact such important legislation. While the most 
obvious work to date has been devoted to implementing Title I, 
NASF has worked with our Forest Service partners to draft 
implementing guidelines for Watershed Forestry Assistance Act 
Title III.
    We urge Congress to fund this and other Healthy Forest 
Assistance Act in the 2005 appropriations bill. In my written 
statement, I briefly summarize the relationship the Healthy 
Forest Act to the 10-year strategy for the National Forest 
Service Plan. We must ensure that the Act continues and retains 
the focus on improving forest health nationwide on all land 
ownerships.
    For Title I, NASF has recently worked with several 
partners, including a witness on our next panel, to develop 
guidance for preparing the Community Wildfire Protection Plans. 
The Western and Southern Governors Associations have also 
endorsed this effort. I would like to submit a copy of the 
guide that was developed for this for the record.
    Mr. Sledge. We designed the guide to help communities 
prepare plans authorized by the Act. Our goal is that it can be 
used by all communities facing wildfire risks regardless of 
their proximity to Federal lands.
    We are working with the communities in our State to 
identify and prioritize actions needed to reduce hazardous 
fuels and improve community safety. In my written testimony 
highlights some of the activities in Idaho and Minnesota as two 
examples of the work that is underway. As we implement fuel 
reduction activities under Title I, we will make important 
progress toward reducing fire risks for communities and the 
surrounding forest lands.
    With millions of acres at moderate to high risk of 
catastrophic fires, it will take many years to carry out the 
needed treatments, and because we are dealing with living 
ecosystems, that change with time will require follow-up 
treatments and ongoing forest management activities we will 
continue to be needing.
    In Mississippi this year, using the National Fire Plan, the 
Stevens Amendment, to treat 85,000 acres together with the 
State funds we already have applying to this, we should come 
close to our goal in Mississippi to prescribed-burn almost a 
half a million acres this year.
    Wildfire prevention is also essential. Without a strong 
focus on prevention, funds invested in suppression and 
preparedness will be less effective. Much of our prevention 
activity is devoted to the Firewise program, helping homeowners 
learn to make their properties more fire safe. We have one 
full-time and two part-time employees dedicated to Firewise in 
Mississippi, and we are able to focus on high hazard wildland 
urban interface areas. We are making a good progress in this 
effort.
    We also have an effort underway to prevent the spread of 
the southern pine beetle in Mississippi. Tree mortality is a 
major factor in increased fire risk. Much of the work is being 
accomplished with State funds. These funds are becoming harder 
and harder to maintain. Our situation is not unique. States 
across the Nation are not able to implement Federal programs 
without Federal funding.
    Title II through VI of the Healthy Forest will also help 
reduce hazardous fuel by providing needed tools for forest 
management. Over time, these programs will lead to improved 
forest health on all lands.
    The Watershed Forestry Assistance Program, Title III, 
focuses on improving forested woodland watersheds, and it will 
be of great value to us in the South. NASF has been working 
with the Forest Service to develop implementation guidelines 
for this program.
    I would like to remind you that two of the best tools to 
achieve the goals of the Healthy Forest Act were authorized in 
the 2002 Farm bill. These include the Community and Private 
Lands Fire Assistance Program and Forest Land Donor Enhancement 
Program. These programs need to be funded, and the future is 
uncertain, but we certainly encourage your help in continuing 
the programs.
    We appreciate your support in the past, and we look forward 
to working with you to continue to ensure healthy forests in 
the nation.
    Thank you.
    [The prepared statement of Mr. Sledge can be found in the 
appendix on page 60.]
    Senator Crapo. Thank you very much, Mr. Sledge.
    Mr. Cope.

         STATEMENT OF ROBERT COPE, COMMISSIONER, LEMHI 
COUNTY, SALMON, IDAHO, REPRESENTING THE NATIONAL ASSOCIATION OF 
                            COUNTIES

    Mr. Cope. Thank you very much, Mr. Chairman. I appreciate 
the opportunity to come back here. It is always a privilege to 
visit our national capital and sauna.
    I officially represent the National Association of Counties 
here, but my area of expertise is central Idaho, so I will 
concentrate on that area. We in Lemhi County feel that we are 
head of the game and behind at the same time. We are ahead in 
that as you well know, the counties of Idaho began the process 
over a year ago of developing their own wildland fire 
mitigation plan. This that I have brought with me is Lemhi 
County's. This was done collaboratively and entirely locally 
with no Federal or State dollars. We did this on our own 
because we felt that outside entities coming in would not have 
the integral knowledge that our own citizens did.
    There is a list almost a page long of cooperating agencies 
in local government, fire departments, fire marshals, the 
county commissioners, the two cities in the county, the BLM, 
the Forest Service. Everybody got together, and over a period 
of months, we sat down on a nightly basis once a month and 
talked things over, and this is what we came up with, and we 
feel that it is a good plan. We feel that we can make things 
work.
    Unfortunately, my county is 92 percent Federal land, and 
what we can recommend, even collaboratively working with the 
Federal agencies is not necessarily what will happen, as you 
well know. Senator Baucus alluded to the problems in Western 
Montana. We are very much a part of that same boat. We live too 
close to Missoula, and there are a couple of organizations 
there, one of which has publicly stated that their objective is 
to appeal any Forest Service project that involves timber 
harvest under any guise.
    Another group there has overtly said repeatedly that their 
mission is to put the Forest Service out of the timber 
business. We are too close to them. We are an obvious target. 
This comes up time after time. We have a community in northern 
Lemhi County that has been evacuated twice in the last 4 years. 
The Forest Service has proposed a fuel reduction project around 
that community. It has been appealed--I cannot remember if this 
is the second or third time.
    It is pretty patently obvious to those of us in Central 
Idaho that fuel reduction in that area is a good idea, but 
there are forces from outside the area who do not seem to buy 
into that. Somehow, as Mark Rey said, we have to educate the 
citizens who may not live close enough to the forest to 
understand the peril that we face that these are necessary 
things to do and that the simple fact of the matter is that 
there is not enough money in the Federal budget anywhere to do 
all the work that needs done on the 190 acres of Forest Service 
land. It will take private sector investment; it will take 
timber sales, and it will take timber harvest.
    The Healthy Forest Restoration Act and the Healthy Forest 
Initiative are excellent steps down the road toward recovery, 
but I spent enough years as a country veterinarian that I know 
that when you put enough critters in a pen and do not give them 
any water, they are going to get sick, and that is happening to 
our forests. We have too many trees. We have not enough water. 
The forests are dying. They are susceptible to disease. They 
are a biological organism, and they are susceptible to the same 
rules of health that animals are.
    We see pine beetles in Idaho reaching epizootic proportions 
because the trees are stressed. They are not disease-resistant, 
and yet, we are unable to go in and remove the trees that are 
sick or dead. We are unable to thin the trees to allow the 
resistance to that disease, most of which is done through 
appeals and through litigation.
    I believe there is also, as Senator Baucus said, probably a 
low morale within the Forest Service. That is probably true due 
to frustration on the parts of people who are resource oriented 
within the Forest Service who really want to do their job. 
There may also be frustration from other employees of the 
Forest Service who believe that their job is to act in a 
preservationist manner.
    I personally have seen a division within Forest Service 
employees between people who really feel that the people who 
are appealing these sales are correct, and it should be a part, 
and those who think that it should be a managed, well-
functioning organization. The fact is, however, that it is our 
belief as county officials that the forest should be managed by 
foresters and not by a judicial system and preservationist 
groups as we feel is happening now.
    Every timber sale that has been proposed on the Salmon 
National Forest for 12 years has come under litigation and 
appeal. The result of which is we harvest almost nothing. 
Talking to Senator Crapo yesterday, I did discover that at the 
time that our sawmill was functioning, it would have required 
15 to 20 million board feet a year to make its quota and to 
function as a good organization.
    That saw mill today is closed. It has, however, been 
replaced by a small-diameter mill, two post and pole plants, a 
house log construction firm and a couple of independent 
sawyers. None of them have the material they need. They would 
probably require, best estimate, probably 10 to 15 million 
board feet annually.
    By the 1987 National Forest plan for the Salmon Chalice, 
the allowable cut on that forest is 28 million board feet. We 
are lucky to make 100,000 a year. We are lucky right now in 
that we have the infrastructure to handle the product that 
needs to be removed from our National Forest, but all of the 
entities that I named are currently in financial difficulty 
because they are having to import their raw material from 
Canada and from Montana, from the State forests.
    Until the day comes that we can utilize the product that we 
have that we desperately need to remove, we are not going to 
get the job done. The Healthy Forest Restoration and Healthy 
Forest Initiative, as I say, are wonderful first steps, and 
they are definitely worthy of funding. They are not a panacea. 
They will take cooperation from all members of the community 
and from the local and State and Federal Governments.
    Thank you.
    [The prepared statement of Mr. Cope can be found in the 
appendix on page 65.]
    Senator Crapo. Thank you very much, Mr. Cope.
    Ms. Daly.

 STATEMENT OF CAROL DALY, PRESIDENT, COMMUNITIES COMMITTEE AND 
                  MEMBER, SOCIETY OF AMERICAN 
               FORESTERS, COLUMBIA FALLS, MONTANA

    Ms. Daly. Mr. Chairman and Mr. Chairman, I am here 
representing the Communities Committee and the Society of 
American Foresters, and thank you very much for the kind words 
that you said about the handbook on preparing community 
wildfire protection plans that we and our partners put 
together.
    The creation of the protection plan should bring together 
all concerned stakeholders to collaboratively identify areas at 
risk of wildfire and develop an action plan for reducing those 
risks. Some clear benefits of that are that existing scientific 
information as well as local indigenous knowledge can be 
brought to the table. All participants learn more about the 
forests around them, while urban residents, WUI residents, find 
out what they need to do with their homes and their properties 
to lessen the risk of loss to wildfire.
    The fuels treatment priorities for both Federal and non-
Federal lands are set only after an open and inclusive 
community discussion of the options. The action strategy covers 
all land ownerships, public and private. Finally, a multi-party 
monitoring process should ensure that the effects of the plan's 
implementation are carefully evaluated and needed improvements 
identified.
    Collaborative planning is the heart of the community 
wildfire protection planning process. Yet in this, as in other 
recent forest-related legislation, mandates for collaboration 
are not backed up with appropriate financial and technical 
support. Many local governments, fire departments and State 
forestry agencies, the decisionmakers in the process, generally 
have little or no experience in collaborative processes.
    It therefore falls to community-based forestry groups and 
other non-governmental bodies to organize and facilitate the 
collaboration. Lacking Healthy Forest or other Federal support 
for that, we have to turn to private foundations and other 
sources for funding, and frankly, these days, they are not 
willing to give it. They see that as a Government 
responsibility, not as a private sector responsibility to 
implement a Government program.
    As critical as collaboration is to the success of Healthy 
Forests, it can no longer be left as an unfunded mandate. 
Without Federal seed money to help communities get started, 
community wildfire protection plans will not happen in many 
places. Dr. Cope's was an exception.
    Without having community wildfire protection plans, many of 
the central features of healthy forests will not be used. We 
are really pleased to hear that the House has set aside $5 
million in the 2005 Interior approps bill to cost-share 
wildfire planning with communities and we urge the Senate to do 
likewise.
    We need to target particular attention to poorer or lower-
capacity communities, those that lack adequate technical or 
financial resources. Otherwise, they face a double-barreled 
threat. They are more vulnerable to wildfire losses without a 
plan and a strategy that they are implementing, and should they 
have a severe wildfire, they have less capability to recover 
from it.
    Overreliance on the stewardship contracting mechanism to 
fund Healthy Forest projects should be avoided. While some 
hazardous fuels treatment activities will yield saleable 
products whose value can be captured to cover all or a part the 
reduction of hazardous materials, many will not.
    Until more or larger markets are created for what are now 
low or no-value products, adequate direct funding for HEFR 
projects is essential. The increase in hazardous fuels 
reduction contracting opportunities arising from Healthy 
Forests and the National Fire Plan has led new contractors to 
enter the field and many existing contractors to refocus their 
operations and invest in new equipment suited to this market 
niche.
    On public lands projects, the transition has not always 
gone smoothly. Cruising, bonding and contracting processes that 
may have worked well on conventional timber sales must be 
revisited in terms of Healthy Forests. Healthy Forests directs 
the Forest Service and BLM to establish a collaborative, 
multiparty monitoring process where significant interest is 
expressed. Monitoring can be an important factor in proving the 
value of Healthy Forests and allaying reservations about its 
intent and impact.
    The joint Forest Service-BLM interim field guide provides 
that multiparty monitoring will be subject to available funding 
and the ability of stakeholders to contribute funds or in-kind 
services. The Wild Land Fire Leadership Council's proposed 
monitoring protocol goes even further and requires that 
stakeholders wishing to participate have, quote, appropriate 
skills and knowledge for monitoring and, quote, be willing to 
share costs. Such requirements could be used to limit or 
discourage multiparty participation, defeating the purpose of 
this important provision of Healthy Forests.
    The Healthy Forest Restoration Act is still very much a 
work in progress, as Senator Lincoln said earlier, and it will 
take leadership and commitment to make it a success. We urge 
that adequate time and support be given to allow for a full, 
fair exploration of its potential.
    The Healthy Forest Restoration Act is creating a 
comprehensive approach to addressing our forests across 
ownerships, within watersheds and ecosystems, and that is 
something that we will probably need to look at in addition, 
not just in fire-prone forests.
    Both the Communities Committee and the Society of American 
Foresters would be very happy to work with Congress, the Forest 
Service, BLM and any others to help the issues we have raised 
today.
    Thank you.
    [The prepared statement of Ms. Daly can be found in the 
appendix on page 82.]
    Senator Crapo. Thank you very much, Ms. Daly. I want to 
give my thanks to the entire panel for really outstanding 
testimony.
    If Senator Cochran, if you would like to go first, I would 
be glad to defer to you.
    The Chairman. Mr. Chairman, thank you very much.
    I am pleased to join you in welcoming this distinguished 
panel of witnesses before our Committee. They represent those 
who are qualified and well-educated and experienced to deal 
with the problems that are confronting our forests throughout 
the country, whether they are on Federal lands or private 
lands.
    Mr. Sledge pointed out how much of our State is filled with 
forests that are privately owned. A large percentage of our 
State is in woodlands. The success that we have in protecting 
the health of our forests and helping to ensure a sustainable, 
productive forest resource is a very important economic benefit 
to our State. It is a great aesthetic benefit to our State; it 
is a great environmental benefit to our State.
    We have a lot riding on making the right decisions and 
providing the funds that are available in the right way to help 
achieve these goals. We were also lucky in that Mr. Sledge is 
the immediate past president of the National Association of 
State Foresters, so he has a wide range of contacts throughout 
the country, and he is representing them all today, and I am 
really grateful that you took the time to come up and join Dr. 
Cope in this sauna of Washington; I thought that is what you 
said; it does feel like a sauna out there on some of these June 
and July days.
    We appreciate the information that you are providing us on 
how we can be more effective in channeling resources to 
programs that you know will work and will benefit our States 
and our National Forests as well, and we will try to follow 
your advice and try to be persuasive as we talk with other 
Senators and members of the other body for making available the 
resources that we need for these important projects.
    There is one question I did have for Mr. Sledge. In your 
testimony, you mentioned the efforts dealing with the southern 
pine bark beetle and how devastating that can be to some of our 
resources. What are the keys to preventing outbreaks of this 
and other insect threats in our forests in the Southeast?
    Mr. Sledge. Well, particularly with the southern pine 
beetle, maintaining the bigger of the stand is essential. This 
means being able to keep the stands thin and also, as 
appropriate, using prescribed fire to keep the trees healthy 
and vigorous.
    So far, in the last year in Mississippi, we have been 
fortunate. We have not had a severe outbreak. These things run 
in cycles, and it will just be a question of time. One of the 
things that is very common also to the southern pine beetle, 
maintenance of healthy forests is the same as you have found in 
many of the Western States: we have to find additional markets 
for small material when we do our thinnings.
    It is very difficult to get a thinning done by a private 
landowner if he has to pay to thin. He wants to be able to 
market it for some amount at least to recover his costs, and 
that is a vital part of this bill that would be of greater 
importance. We look at it right now that our biggest task is to 
prevent the attacks rather than have to react to them.
    The Chairman. We heard the Chairman talk about these 
products that are being developed, and Dr. Cope mentioned that 
as well. Are we seeing any projects of this kind in the 
Southeast related to biomass wood utilization? Is any progress 
being made on that in our part of the country?
    Mr. Sledge. We have, in Mississippi right now, one that I 
find very exciting and have been involved with, a process 
called TimTec, which came out of the private sector, but they 
came to the Land, Water and Timber Board, which was set up by 
the State Legislature, asking for funding for Mississippi State 
for some research to take small stands--in a very unscientific 
explanation, crush them and make a composite wood product out 
of them which at this point shows very strong characteristics 
to make it for construction lumber.
    At this time, due to some money, grant money that we were 
able to provide them, an outfit called Sugarlock Lumber Company 
is in the process of building, trying to get financing to build 
a plant which would consume, if I remember right, about 500,000 
tons of material annually, which would be a tremendous asset to 
the State.
    The Chairman. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Crapo. Thank you very much, Senator Cochran.
    Just following up on the last line of questioning, I 
appreciated each of the panelists in one context or another has 
discussed the importance of making sure we utilize the biomass 
products as they come out of our forests and finding a pathway 
for that to be successful. Ms. Daly, if I understood you 
correctly, you indicated that you thought that while we are 
making that market transition, we may need to have some kind of 
support to make sure that these transitions occur; is that 
correct?
    Ms. Daly. Yes, one of the things that we are seeing now in 
Montana when you are dealing with projects with large amounts 
of very small, low or no value material is that they very 
quickly flood the available markets, and so, it becomes very 
difficult for contractors to be able to take them out. They 
have no way to sell them.
    Really, they are going to have to be paid to remove them, 
because there is not a market there. There are some small types 
of new businesses starting to use some of these materials, and 
then, there are some businesses like pulp mills that are 
already set up to use some of them. You get into transportation 
problems and a number of other things that raise the cost of 
moving those materials and makes it difficult.
    Senator Crapo. Well, thank you.
    This is obviously an issue that we are struggling with here 
at the Federal level, but our policy on the issue is clear. We 
just need to make sure we get all the agencies to understand 
the policy and to understand how serious we are about 
implementing it, and then, we will find some ways to move 
forward on that.
    Mr. Cope, I wanted to use my time with you and talk with 
you about some of the issues that you raised. One of the other 
issues that I would like to get into, which you have discussed 
in your testimony, is the relationship of commercial activity 
to healthy forests. Very clearly, when we debated the Healthy 
Forest legislation, our ability to build a strong, bipartisan 
bill was dependent in large part on the fact that we focused on 
protecting communities, and we focused on reducing the fuel 
load and addressing that part of the forest management that was 
not specifically connected to commercial activity.
    However, as I have said earlier in the hearing today, I 
believe that commercial activity can be beneficial to those 
very same purposes and objectives, namely, reducing the fuel 
load and accomplishing proper forest management techniques. The 
reason I asked you to get those numbers yesterday and bring 
them to the hearing with you today is because of an experience 
I had in the Salmon National Forest in your hometown where, Mr. 
Chairman, I visited--Salmon, as Mr. Cope has indicated, is a 
county in Idaho which is 92 percent Federal land. There is one 
community and then lots of folks living around the forest in 
the available private land, but their economic activity is 
dependent on our National Forest and on the resource-based 
economy that has grown out of it.
    I went there when I was a Congressman. This has been about 
8 or 10 years ago, and we had one mill that employed, I 
remember, 40 people. This mill--I toured the mill. They were 
having trouble getting--they were in the middle of a giant 
forest, and they were having trouble getting timber to run 
their mill.
    I asked them how many board feet they needed, and I had 
forgotten the answer, and Mr. Cope gave me the answer here 
today. It was around 15 to 20 million board-feet. They were 
worried about having to close that mill down. Ultimately, they 
did have to close it down and lost 40 jobs in that small 
community.
    That same day, I went to the Forest Service and asked them, 
as we were touring and finding information from the Forest 
Service, I asked them in their sustainable forest approach so 
that they were meeting all environmental standards and not 
overcutting the forest or anything, how many board feet could 
they generate out of this forest? I had forgotten that number 
as well. Mr. Cope brought it to me. It was approximately, at 
least in 1987, it was about 28 million board feet, which was 
well more than the amount that this little mill needed.
    Well, we could not get it. Did you say that today, they are 
getting about 100,000 board feet?
    Mr. Cope. If we are lucky.
    Senator Crapo. If we are lucky, off of the forest, which, 
if I understand you correctly, means that the fuel load in that 
forest is growing much, much faster than we are removing it.
    Mr. Cope. Estimated at over 100 million board-feet per year 
on that forest.
    Senator Crapo. In terms of increase in fuel load every 
year.
    Mr. Cope. Correct.
    Senator Crapo. We have a tinder box growing there just like 
we have in some other parts of Idaho and other parts of the 
country.
    I just wanted to make that connection between--as we 
address not only the impact and the management under the 
Healthy Forest Act, I just wanted to make that connection with 
the fact that we can use other tools, like the Healthy Forest 
Initiative that the President has and our commercial activities 
for little communities like this in these forests to not only 
help economic activity and help these communities thrive with 
their resource-based economies but to help proper forest 
management.
    Mr. Cope, if you would like to just comment on that in any 
way, I would appreciate it.
    Mr. Cope. Absolutely.
    I was also able to pick up from our forest supervisor the 
plans and projections for the next 5 years on fuel reductions 
projects through prescribed burn and mechanical thinning. 
Through 2009 or 2010, whatever the next 5 years are, the total 
acreage for mechanical thinning and prescribed burn is a little 
over 77,000, which amounts to 1 percent of our National Forest, 
which is 5 million acres, 1.5 percent.
    The simple fact is that on an area that vast and that 
overgrown, we simply do not have the resources or the finances 
to complete all that work. That is why I say it will take 
commercial activity; it will take private sector investment. 
There is simply too much fuel out there for the Government to 
go out and pay to have it done. It needs to be a community 
effort, partnership between industry, local and State 
governments and the Federal Government and the land management 
agencies.
    I believe that can happen, but we have to be able to do 
that on the community level, and right now, we have a lot of 
help that we really do not need from other areas.
    Senator Crapo. Well, Mr. Cope, the community that I am 
talking about is Salmon, Idaho. Did you indicate that the 
community had been evacuated twice?
    Mr. Cope. That was Gibbonsville.
    Senator Crapo. Oh, Gibbonsville, OK.
    Mr. Cope. We have not had to evacuate Salmon yet.
    Senator Crapo. I know we have not had to evacuate Salmon; 
that is right, but I have been out there during some of the 
last forest fires, where the community was literally in 
jeopardy and have flown in one of the forest fire helicopters 
over the community, and the forest was burning so hot just 
right outside of town that each night, they would try to build 
a fire break against it on a ridge, and the fire would just 
leap the ridge and go on to the next one, and they kept 
fighting and fighting and fighting it for weeks in that 
particular fire.
    This is as a result of the fact that we are just not able 
to manage the forest well enough. I know that some are probably 
a little uneasy about me bringing up the commercial connection 
here, because we built a lot of our common approach to get the 
Healthy Forest Act passed by staying away from the commercial 
arguments. I am not trying to start a fight here that will 
jeopardize our implementation of the Healthy Forest Act because 
it does not focus on the commercial side of our forest 
activity.
    I do want to raise issue and hopefully help educate the 
people in the country who are concerned about these issues as 
to the fact that we can accomplish these proper objectives for 
forest management through proper commercial activities, and at 
some point, we are going to have to address that, and I hope 
that we continue to recognize that need.
    Do you have any further questions, Mr. Chairman?
    The Chairman. I was curious. Is Salmon on the Salmon River?
    Mr. Cope. Yes, it is.
    The Chairman. Because I recall going out there one time on 
a reconnaissance float trip down the Middle Fork of the Salmon 
River and being absolutely impressed, Mr. Chairman, with the 
beauty of the region and the majesty of that river. We spent 
four or five nights out on the river as we made our way down on 
that trip.
    I also remember, Mr. Chairman, that at one point, we passed 
an area that had been devastated by a forest fire, and I asked 
when did the fire occur? They said something like 20 years ago. 
It looked like it had occurred last week. In our part of the 
country, these forests grow back pretty quickly. They get 
rejuvenated, and it is amazing how quickly they can be 
restored.
    Out in your part of the country, if a forest fire gets 
loose out there, it does not come back in our lifetime, does 
it?
    Mr. Cope. No, our average precipitation is 11 inches per 
year. It takes a long time to recover if ever, because you get 
permanent land damage. We have had catastrophic fires so hot 
that it sterilized the soil. What comes in on top of that 
afterwards when things do grow tend to be noxious weeds. 
Truthfully, I am not sure that--well, I am sure that we will 
not see that country as it was, and I am interested to hear 
that you have been there, because that gives you an 
understanding of why it is that we care and love that country 
so much and why we want to see it preserved and managed well.
    The Chairman. We wish you all the best, and we hope that 
the initiatives contained in the recent legislation that the 
Chairman and I and others worked on will be helpful in the long 
run. We are determined to make it work through increased 
funding and targeted funding and programs that will really make 
a difference in the future.
    Thanks, Mr. Chairman.
    Senator Crapo. Thank you very much.
    We will excuse this panel and again, thank you for your 
testimony.
    Mr. Cope. Thank you.
    Senator Crapo. While our third panel is coming forward, I 
will introduce them. Our third panel consists of Mr. James R. 
Crouch, from Jim Crouch Associates, representing--I am not 
going to pronounce this----
    Mr. Crouch. Ouachita.
    Senator Crapo. Ouachita--I will let you say it--Timber 
Purchase Group and several others: the Ozark/St. Francis 
Renewable Resource Council and the Lake States Federal Timber 
Purchasers Group; also, Mr. Tom Partin, president of the 
American Forest Resource Council of Portland, Oregon; and Dr. 
James Earl Kennamer----
    Mr. Kennamer. Kennamer, that's right, sir.
    Senator Crapo. I got it right, from the conservation 
programs of National Wild Turkey Federation. We appreciate all 
three of you being here with us, and we will have you testify 
in the order I have introduced you.
    Mr. Crouch.

     STATEMENT OF JAMES R. CROUCH, JIM CROUCH ASSOCIATES, 
         RUSSELLVILLE, ARKANSAS, REPRESENTING OUACHITA 
          TIMBER PURCHASERS GROUP, OZARK/ST. FRANCIS 
RENEWABLE RESOURCE COUNCIL, AND THE LAKE STATES FEDERAL TIMBER 
                        PURCHASERS GROUP

    Mr. Crouch. Thank you very much, Mr. Chairman. Good to see 
both of you. I am one of these Mississippians, Senator Cochran, 
so you have us en masse today.
    The Chairman. We welcome you. Thank you for being here.
    Mr. Crouch. I am, as the Chairman said, the owner of Jim 
Crouch and Associates, a small forestry consulting business in 
Russellville, Arkansas. Prior to 1987, I was forest supervisor 
of the Ozark/St. Francis National Forest, and my testimony 
today is on behalf of the Ouachita Timber Purchasers Group, the 
Ozark/St. Francis Renewable Resource Council and the Lake 
States Federal Timber Purchasers Committee. The members of 
these organizations buy National Forest stumpage.
    I am here today because our National Forests are unhealthy. 
Our forest health crisis is not simply about catastrophic 
wildfires, as many would have you believe, but rather, it's 
about failed management that allows insect and disease 
outbreaks that devastate our forests and makes possible the 
catastrophic wildfires that we see on the evening news.
    Many would argue that our National Forests are no longer 
sustainable. However, there is ample evidence that well-
designed and applied forest management strategies can help. It 
is also more economical to properly manage the forest than it 
is to suppress catastrophic events when they occur and restore 
the area. I strongly support active management based on sound 
science and implemented through local decision-making.
    HFRA represents a bold acknowledgement that our Federal 
forests are in a crisis, and urgent, active management is 
necessary. I believe for HFRA to work that the Congress must 
provide additional funding. I believe the Forest Service must 
promptly embrace these new tools, and I believe that the 
administration and Congress together must support the existing 
forest industry infrastructure and not lose what you have in 
many of these small communities.
    I work closely with many National Forests in the South and 
the Lake States, and I find dedicated, hard-working, highly 
skilled agency managers and specialists. These people know how 
to keep these forests healthy and productive, but they are 
terribly frustrated. Gridlock, high unit costs and limited 
budgets prevent them from putting their forest plans on the 
ground.
    I'd like to talk briefly about Title I and Title IV. I 
believe that in Title I, the Community Wildfire Protection Plan 
has potential to improve the forest health if it is embraced by 
the forest agencies and cooperators. That is a really good 
piece of the legislation.
    The Forest Service must use a mixture of prescribed burning 
and mechanical thinning to reduce hazardous fuels and treat 
stands that are candidates for bug and disease attacks. If such 
stands are not actively managed, they face almost certain death 
as they mature, become overcrowded, and their vigor declines. 
Many of these acres are candidates for commercial thinning at 
costs that are comparable to prescribed burning. If we look at 
the National Fire Plan, it specifically includes mechanical 
thinning as an approved method.
    In Title IV, provides for expediting large-scale 
silvacultural assessments on Federal lands that are either 
experiencing or are prime candidates for insects or disease 
outbreaks. As the Under Secretary stated this morning, we have 
a couple of those underway already in Arkansas, and we believe 
that is going to be a good part of the tool: southern pine 
beetle and red oak borer.
    As the health of the forest declines, forest-dependent 
communities suffer. As an example, in the Lake States, 77 mills 
have closed or scaled down their operations since 1989. In 
Minnesota, where 16 mills were affected, the Forest Service 
proposes to cut the volume of stumpage that the Chippewa and 
Superior National Forests can sell by 25 percent. Companies in 
close proximity to these two forests now import logs from 
Saskatchewan and other Canadian provinces at greatly increased 
costs in an attempt to keep their mills running. Both the 
Chippewa and the Superior are currently experiencing major 
health problems in stands that need active management. It does 
not make a lot of sense to me.
    Since 1905, we as a nation have invested billions of 
taxpayer dollars to buy cut-over and abused forests and 
agricultural lands, the lands that nobody wanted, if you would, 
to reforest them and to nurture the young trees in today's 
pristine National Forests of the South and the Lake States, and 
I guess my question is are we now as a nation going to allow 
bugs and disease to harvest these forests, or are we going to 
actively manage them for the good of all citizens?
    In closing, I would urge you and the administration to 
properly fund and immediately embrace the new tools in HFRA. I 
would urge the Forest Service to use these tools to reduce unit 
costs and to make active management include thinning and 
regeneration a priority.
    Thank you.
    [The prepared statement of Mr. Crouch can be found in the 
appendix on page 86.]
    Senator Crapo. Thank you very much, Mr. Crouch.
    Mr. Partin.

 STATEMENT OF TOM PARTIN, PRESIDENT, AMERICAN FOREST RESOURCE 
                   COUNCIL, PORTLAND, OREGON

    Mr. Partin. Good morning, Mr. Chairman and Senator Cochran. 
My name is Tom Partin, president of the American Forest 
Resource Council, and first of all, I would like to say what an 
honor it is to be in front of this Committee, knowing that you 
worked so hard to pass the HFRA bill last year.
    The American Forest Resource Council represents nearly 90 
forest products manufacturers and timberland owners located in 
12 Western States. Our mission is to promote balanced and 
sustained management of our Federal forests, including a 
consistent and predictable flow of raw materials from these 
forests.
    Most of our members are located in small, rural communities 
throughout the West, and these rural communities are only as 
healthy as the forest products industries located there. 
Consequently, forest health means community health. During the 
past decade, many of our Western forests have been the victims 
of drought conditions and overcrowding due to lack of 
management, which have left them ripe for wildfires.
    Once a wildfire gets started under these conditions, they 
are very hard to extinguish and often burn hundreds of 
thousands of acres before being controlled. Further, we have 
seen that any attempt to rehabilitate the burned landscape is 
usually met with appeals from the environmental community, 
resulting in these projects being tied up in the court systems 
until the burnt timber has no value and the needed restoration 
is postponed for several critical years while we are waiting 
for a verdict from the courts.
    We know that there has to be a better way of managing and 
tending our Federal forests, and that is why AFRC worked very 
hard with the Members of Congress to help pass the Healthy 
Forest Restoration Act of 2003. The Bitterroot fires of 
Montana, the Rodeo-Chediski fire in Arizona, the Biscuit fire 
in Oregon and the San Bernadino fires in California point out 
that this is a national crisis, and we can no longer fail in 
treating unhealthy forests or rehabilitating them after they 
burn.
    The 2004 fire season is just getting underway, and Forest 
Service Chief Dale Bosworth has assessed this year's fire 
season as being as bad as the 2000 fire season, which, as we 
recall, burned 7 million acres of timberland. With this grim 
fire forecast, we believe the Forest Service and BLM should use 
all of the HFRA authorities to attempt to double the number of 
acres treated in fuel reduction projects this year.
    To accomplish this task, the agencies must do a number of 
things, including supporting community-based wildfire 
protection plans to quickly treat the wildland-urban interface; 
use expedited environmental analysis processes which require 
only analyzing two alternatives which would quickly get 
projects to the ground; to use new judicial review procedures 
including the balance of harms provisions to be successful in 
our court system; and to aggressively use new stewardship and 
categorical exclusion authorities to treat additional acres.
    Using these new tools, we do believe the Forest Service and 
BLM, as Mark Rey said, can double the acres treated for fuels 
reduction from 2 million this year to 4 million. It has been 6 
months since the signing of the Healthy Forest Restoration Act, 
and the success of any new program is driven, to a large 
degree, by the attitude of those people doing the 
implementation. It has been our observation that a new and 
welcome can-do attitude is taking place within the agencies 
when it comes to implementation of the HFRA.
    We are already seeing new projects being planned in 
watersheds at risk, in areas where we have fire condition class 
two and three, in the wildland-urban interface areas most at 
risk for fires and in areas where insects and disease are 
causing forest health problems.
    Other efforts underway involve using Title III funds to 
assist in developing community-based fire plans and using new 
authorities to more quickly rehabilitate areas in burned 
wildfires. This last authority has been used very effectively 
in Region VI by Regional Forester Linda Goodman. Emergency 
action was requested and granted to remove salvage wood before 
it lost its economic value and to more quickly implement 
rehabilitation projects needed on three 2002 wildfires.
    The EISes, of course, were challenged, as they all are, in 
the court system, but the Forest Service prevailed because they 
had done excellent work in their EISes, and the projects are 
moving forward, delivering much-needed wood to our mills and 
getting rehabilitation done on these burned areas. We strongly 
support the Forest Service for making this emergency request, 
and we ask that it be used more broadly.
    In conclusion, Mr. Chairman, the Healthy Forest Restoration 
Act of 2003 has given the Forest Service and BLM needed tools 
and authorities to treat our forests at risk to wildfire. This 
authority is not a panacea, or it is not a cure-all for our 
unhealthy forests, nor is it intended to take the place of the 
regular green timber sale program that we need for consistent 
volume. It is an aggressive and much-needed first step.
    To date, we are pleased with the new attitude of the 
agencies and how they are using their new authorities, and for 
this effort, the members of AFRC give the forest management 
agencies a B plus. It is important that the agencies deliver on 
their promise to treat 20 million acres of unhealthy forest for 
the sake of our forests, for the sake of our communities and 
for the sake of our forest industries.
    Again, I want to thank you, Senator Crapo, and the other 
members of this Committee for inviting me here.
    [The prepared statement of Mr. Partin can be found in the 
appendix on page 92.]
    Senator Crapo. Thank you very much.
    Dr. Kennamer.

  STATEMENT OF JAMES EARL KENNAMER, SENIOR VICE PRESIDENT OF 
    CONSERVATION PROGRAMS, NATIONAL WILD TURKEY FEDERATION, 
                   EDGEFIELD, SOUTH CAROLINA

    Mr. Kennamer. Thank you. We appreciate the opportunity to 
address what we believe may be the most important legislation 
affecting our National Forests in many years, the Healthy 
Forest Restoration Act.
    The National Wild Turkey Federation has worked closely with 
the U.S. Forest Service to carry out millions of dollars of 
cost-share projects to benefit wildlife habitat on our National 
Forests. This year, we completed two stewardship contracts on 
the Francis Marion and Sumter National Forests to reduce the 
threat of wild land fire and improve wildlife habitat.
    Since 1980, we have worked successfully with the U.S. 
Forest Service, Arizona Game and Fish Department, U.S. 
Department of Agriculture, U.S. Fish and Wildlife Service and 
the Mexican Government to restore the Gould subspecies of the 
wild turkey to the Coronado National Forest in Arizona. A 
catastrophic fire could undo all of this work and set us back 
for decades.
    It is estimated that over 190 million acres of Federal 
forests and rangelands in the lower 48 States are currently at 
risk of large-scale insect and disease epidemics and 
catastrophic fires. This places rural communities at risk and 
seriously threatens watersheds and fish and wildlife habitats. 
The poor conditions of our forests are a direct result of the 
lack of active forest management over recent decades combined 
with the exclusion of fire for over 100 years.
    The Act provides new and better tools to put prescribed 
fire back into the landscape, thus restoring fire-dependent 
ecosystem and fire-adapted habitats. Prescribed fires also 
safeguard rural communities from the ravages catastrophic 
wildfire and improve the overall health of the forest.
    The Act also provides tools to identify pests and stop 
infestations before they spread. Insects such as the southern 
pine beetle and the red oak borer would not have spread so fast 
nor be so widespread had the Forest Service been allowed to 
maintain the health of the forest over the last several 
decades. One habitat that is lacking in many of our National 
Forests is early successional habitat, which is characterized 
by young trees.
    Early successional habitat can be created through timber 
harvests and thinnings. These thinnings and harvests also 
create a break in the continuous fuel found on the forests so 
that in the event of a wildfire, firefighters have a chance to 
stop the fire when it hits these man-made breaks in the canopy.
    Many fire-adapted landscapes require periodic fire to 
maintain a healthy forest and the best wildlife habitat. 
Prescribed fire opens up the underbrush, allows sunlight to 
penetrate to the forest floor, and creates the early 
successional habitats that are so rare on many of our forests 
today. Even the catastrophic fires we saw in Yellowstone in 
1988 improve wildlife habitat for grazers such as elk, but this 
was dangerous and an expensive way to create wildlife habitat.
    Under the current conditions of our forests, we have only 
two choices: we can harvest the trees and follow the harvest 
with prescribed fire to actually improve forest health and 
habitat quality, or we can sit back and watch unnatural 
infestations of insect pests kill the trees and degrade the 
habitat. In many habitats, these infestations will be followed 
by catastrophic wildfires like the ones we have all watched 
destroy forests, homes, communities and human lives in recent 
years and destroying wildlife habitat.
    The Healthy Forest Restoration Act offers a beginning of 
the solution. The act can only succeed with the proper 
implementation and adequate funding. I urge the Committee to 
work for full funding for the Act so we can reclaim our forests 
and, over time, which will take decades to do, restore the 
forest system that has supported this great nation for 100 
years. Thank you.
    [The prepared statement of Mr. Kennamer can be found in the 
appendix on page 97.]
    Senator Crapo. Thank you very much, Dr. Kennamer.
    I will start out my questioning with you, Mr. Crouch. In 
your testimony, you indicated that the agencies have focused on 
prescribed burns to meet fuels reduction objectives. I know in 
the West, there are situations where fuel loads preclude 
prescribed burns until we get in and do some mechanical 
thinning. I assume the same thing is true in the South in some 
areas; is that correct?
    Mr. Crouch. Yes, you could look at the intermountain West 
and look at places in the South, and you would certainly find 
that similarity. You've got vast areas of either already dead 
and dying trees, or you have trees that within our lifetimes 
will certainly die from overcrowding and so forth.
    We believe, as professional people, that there is a great 
opportunity to manage the stocking control, hopefully 
commercially so it is not with taxpayer dollars, and prevent 
the bugs and disease attacking those and then them feeding the 
big fires that you are seeing burning in parts of the West. We 
would like to see you work on the other end of the horse, the 
prevention end.
    Senator Crapo. Well, I can certainly agree with that. The 
pine beetle and the red oak borer--is that the one that you 
have? We each have our own fair share of these problems, and we 
can certainly solve a lot of it if we would get in and deal 
with them. I certainly agree with that.
    Mr. Partin, during the consideration of the HFRA, many 
people viewed Title IV as the Southern title. Yet we in the 
Northwest have severe problems with insects and disease as 
well. Do you envision the type of landscape level projects that 
are being proposed by the Forest Service in the Ozark/St. 
Francis as something that we should be considering in the 
Northwest?
    Mr. Partin. We should consider these projects in the 
Northwest, because as you know, we have severe infestations of 
mountain pine beetle, spruce budworm that is causing damage to 
thousands of acres, and we can take the template that they are 
using in the South, convert it over to our Western forests and 
be very effective.
    I mentioned primarily wildfire in my testimony, because 
that has been first and foremost on the issues that we have had 
to deal with, but that only comes after we have infestations 
from the bugs. The first step is to treat these forests riddled 
by the bugs and get those in a healthy situation, and then, we 
will avoid the fires.
    Senator Crapo. Well, thank you. I also appreciated your 
testimony about the new attitude that you recognize in the 
agencies since the passage of the Healthy Forest Act. That has 
been my experience, too, and I am glad to hear back a little 
bit of input. Mr. Crouch, you are shaking your head yes. Are 
you experiencing that?
    Mr. Crouch. I am saying that the folks out there are very, 
very capable ones. I deal with a very willing and very anxious 
to do it if they could remove a few of these obstacles.
    Senator Crapo. If we just provide them the authorities and 
the ability to move forward, and I see Dr. Kennamer shaking his 
head in agreement as well.
    Mr. Crouch. The money.
    Senator Crapo. The funding, and that brings it right back 
here, which Senator Lincoln and I were talking about 
previously.
    Mr. Partin, you indicated that with this emergency EIS or 
this emergency authority that was exercised that you were 
describing to us and the EIS challenges being successfully met, 
can you tell me, were those challenges brought after the 
Healthy Forest Restoration Act, and were they handled under the 
new authorities under the HFRA, or do you know?
    Mr. Partin. The emergency action or emergency determination 
was asked for this spring after HFRA, and I believe that is 
part of the tools in that bill. Without that, we would not have 
been able to get an expedited approach to these sales. What it 
did was take the sales more quickly, complete the EIS, get them 
in front of the courts, because as you know, all of these 
projects are appealed.
    The courts made a quick determination on them. They found 
that the EISes prepared were good documents. They ruled in 
favor of the Forest Service. Within a week after selling these 
sales, they were being operated on the ground.
    Senator Crapo. These are some examples--I do not know if 
you followed the debate here when we debated the Act, but that 
result was exactly what we were hoping to accomplish, and what 
you are telling us is that we are seeing some of that on the 
ground now.
    Mr. Partin. We are seeing it on the ground, and that is one 
of the reasons we bought in so heavily to HFRA, because we 
needed something different. We could not allow these large 
project wildfires to sit for two, three and 4 years while the 
timber totally lost its value.
    At least these are sales that are now going on in their 
second summer. We are getting some commercial value out of 
them. More importantly, we are getting this landscape 
rehabilitated, because we would see fires, as you have seen in 
Idaho and Montana that have sat for 5 years without 
rehabilitation. We have seen the soil suffer, we have seen the 
water, we have seen the air, we have seen the wildlife. We 
cannot have that.
    Senator Crapo. Well, thank you.
    Dr. Kennamer, I am glad to have you bring the focus of 
wildlife into this whole issue as well. One of the other roles 
that I play here in the Senate on another Committee is the 
chairman of the Fisheries, Wildlife and Water Subcommittee of 
the Environment Committee. In that role, we pay a lot of 
attention to these kind of issues. I do not have time; my time 
is expiring here, but I just want to tell you I really 
appreciate the perspective you brought to us today as you 
discussed some of the critical issues relating to the impacts 
of our decisions in forest management on wildlife and what that 
can mean to us.
    Senator Lincoln.
    Senator Lincoln. Thank you, Mr. Chairman and thank you for 
your patience with me today. I am in multiple places at one 
time.
    Senator Crapo. I understand.
    Senator Lincoln. A very special thanks to our panel and 
certainly to Mr. Crouch from Arkansas; we are glad to have you 
here, Jim.
    Mr. Crouch. My pleasure.
    Senator Lincoln. I guess really to hear from you, and I do 
hear from you on a regular basis, but to be able to share with 
the rest of the Committee and others, what parts of the Healthy 
Forest Act have really been the most helpful to you? Where have 
you found the best results in terms of the tools that we have 
given you?
    Mr. Crouch. I believe that in the East, where we are 
dealing more often with the maturing stands that are 
overstocked, that are threatened by bugs and insects and so 
forth, that will contribute to fires very shortly that we can 
go back under the National Fire Plan and emphasize the thinning 
aspect of it.
    We saw the Ouachita National Forest this year, as a result 
of extreme shortages in their green timber sale program 
moneywise begin to figure out ways to do things like that, and 
they, in fact, took a considerable number of dollars that were 
National Fire Plan dollars to actually do the environmental 
assessments, actually put the paint on the trees and in effect 
sell a considerable amount of this volume that was being 
threatened.
    We are having to stretch a little harder in the East to 
make some of these things work. It has taken a little bit 
longer for us to get them working. We think the assessments 
over under Title IV will help us, because there, you can 
actually deal with significant blocks of timber, and you can 
bring your research community, Forest Service research, 
universities together, again, to learn a lot about that, maybe 
how to prevent it, how to deal with it after it happens and so 
forth.
    Quite frankly, we would like to see the Healthy Forest 
Restoration Act be a little more about health and a little less 
about fire.
    Senator Lincoln. Of the tools that are there and the 
objectives we tried to reach with the Healthy Forest 
Initiative, do you see anything that we did that maybe one 
something in there that is not being as fully utilized as it 
should and could be that could be really a much more 
instrumental? Is there something that the administration or the 
Forest Service is not really using?
    Mr. Crouch. I am a little bit, after talking to many, many 
Forest Service people and being old Forest Service myself, it 
is a little harder for me to be as enthusiastic about it as you 
may find other people. It is certainly a set of tools that 
helps. Some of the reluctance, if you will, of the Forest 
Service to really embrace it and get on with it is caused by--
--you do the 10 or 15 page each, for example, that Jim Connoton 
and his group put out as a suggested one, but somewhere, you 
have still got to have all of these exhibits and appendages and 
so forth, and when you get through with it, it may not be a lot 
different from what you have done.
    I see some of those kinds of things. One area that I would 
like to see tweaked a little bit, I like the counterpart 
regulations, where the Forest Service basically has now got 
full authority to do BEs under certain situations. I would like 
to see something like that extended for the cultural resources. 
There, you have to deal with the individual state SHPOs, and 
you get widely varying situations from State to State; that is 
a major problem right now, frankly, in Arkansas is the 
tenderness, if you will, that you have to deal with the SHPOs.
    Senator Lincoln. Something we could probably improve on.
    Mr. Crouch. That could be a counterpart regulation, 
probably, where you have qualified archaeologists and so forth 
on staff.
    Senator Lincoln. Well, thank you again for your hard work.
    Dr. Kennamer, thank you so much. I have to say that my very 
first experience in the National Forest was with my father 
turkey hunting. He used to like to go to the St. Francis 
National Forest, and he would take me up in the afternoons, and 
I would walk the ridges with him, and he would bed down a 
turkey, and then, he would go back and get it in the morning 
when it came off the roost, let me sleep.
    As the co-chairman of the Congressional Sportsman's Caucus 
here, I have to say that I was a little bit selfish in working 
so hard on this Act, because this spring was the first time I 
got to take my twin boys turkey hunting, and it was wonderful 
to watch them enjoy the outdoors, enjoy the forest, be amazed 
at what they heard and saw when those beautiful creatures came 
out, and it is a wonderful thing.
    I am very pleased that your interest here in preserving our 
forest for future generations and for something that we know is 
a part of our heritage in the sportsman's world. I am very 
grateful to you.
    I know that you mentioned a little bit about the red oak 
borer insect or the insect concerns that are there. We suffer 
with the red oak borer in Arkansas, and of course, it has been 
a huge issue for us, but the may be something there you might 
want to expand on. I don't know.
    Mr. Kennamer. Well, Senator, one of the things that we have 
to deal with is we are going to be losing hundreds of thousands 
of acres of oak that are in the older stages. We have to 
regenerate that oak so that it will have economic benefit in 
the future. Importantly, the early succession that it will 
create, which is good for turkeys, because if we do not have 
the early grassland stages, we do not have quail, and that is 
one of the reasons for the decline of the bobwhite quail. We do 
not produce wild turkeys.
    Not only are we going to need that from the wildlife 
benefits but just a safety issue: people in the woods trying to 
go out and enjoy the woods like you did with dead timber, 
climbing a tree to deer hunt or whatever; so we have to get 
back into the active management and deal with the red oak borer 
so that your kids and their kids will have the chance to come 
back and hunt, because we need those early successions, and 
this Act provides that opportunity.
    Senator Lincoln. Well, it is so interesting to see, even 
from those who are nonparticipants in the forest, people that 
just drive by, particularly around the Ozark and the Ouachita, 
because we have a lot of really scenic highways that go through 
there, those that notice the devastation. We clearly had a 
tremendous loss of trees due to those red oak borer, and it was 
amazing just to again, those who were just passing by to see 
that kind of devastation, it brought about a real reality of 
the need to manage the forest.
    When I was first elected to Congress in 1992, the Forest 
Service was going to give me a tour of the St. Francis, and I 
guess they did not know I grew up in it, but I asked them if I 
could bring my dad along, and it was interesting, because we 
went up in the forest, and they took us on a tour, and 
afterwards, I was driving home, and I asked my father, and I 
said did they show me everything? He said, well, they showed 
you pretty much everything. There are a few places that they 
did not show you that they probably should have.
    He said but what most people do not realize is that this 
beautiful forest, which is probably one of the best hardwood 
timber forests in North America; although it is small, it is 
very, very good timber, he said it was pastureland 100 years 
ago. He said when pioneers came through here, they cleared it 
and you can see that certainly, timber, like anything else, has 
to be managed if it is going to be able to sustain itself, and 
that is a critical part of what we have to do in these forests.
    We appreciate all of you all, and I very much appreciate my 
Chairman here, who has been great to work with and thank you 
very much.
    Senator Crapo. Well, thank you very much, Senator Lincoln. 
I have to also indicate what a pleasure it is to work with you. 
When we got put together on this Committee and got to work 
together, it was just a treat for me, and it has been a benefit 
for the country as we have been able to work in a bipartisan 
way and get things done, which does not happen around here a 
whole lot.
    I just have one last question, and you are certainly 
welcome to ask a last one if you want, but Mr. Partin, or 
actually, Mr. Kennamer, the last question is for you, and that 
is in your testimony, you mentioned stewardship contracting on 
the Francis Marion and Sumter National Forests, and could you 
please elaborate on your experiences with these contracts 
briefly and tell us how they benefited both habitat and 
wildlife?
    Mr. Kennamer. I would be glad to, Senator. Both of these 
examples happened this spring. They happened in about three and 
a half to 4 weeks, which in Forest Service time scales would be 
almost miraculous. We had a willing forester who was willing to 
go out and help us get some stewardship contracting underway. 
We were able to burn 1,200 acres on the Sumter National Forest, 
which was beyond what the Forest Service would have had the 
ability to do. We did it for under $20 an acre with a 
subcontractor who was a former Forest Service employee. We also 
employed local people in the community to help with the fire 
lines, and so, we saved money for the Government. We created 
more habitat that would not have happened otherwise.
    On the Francis Marion, after Hugo, which was an event that 
happened in the eighties, we looked at almost a billion board-
feet of timber on the ground. A lot of that has come back in 
pine timber that is very small; it is crowded because, as 
mentioned earlier today, we have real fast succession in our 
part of the world, and we tried to reclaim on 62 acres that 
hardwoods needed to be on that site, so we went in and removed 
with the subcontractor that was able to go do it again at a 
very competitive cost, remove the timber from 10 inches to two 
inches, which heretofore, that would have either been left on 
the ground or thrown away or would have died.
    We took that out and took in the timber down to two inches 
that was chipped and sent to the mill was enough timber to 
produce about a million copies of your local newspaper. The 
bark from the trees are going to be used to power the power 
plant. They are going to bring the bark back in, so we have 
good wildlife benefit; we can maintain it with fire; the local 
economy benefited, and overall, the people in this country will 
get more for their bang than they have ever had before.
    Senator Crapo. Well, that is certainly the kind of success 
story that we need to hear, that and the experience on 
streamlining the process and the focus on prevention all are 
the aspects of this issue that we need to make sure the 
American public understands as a part of the solution.
    Unless you have anything further----
    Senator Lincoln. We need to get Dr. Kennamer up here to 
help us squeeze a little more bump out of our dollars.
    Senator Crapo. You got that right.
    Mr. Kennamer. We will be glad to try to help.
    Senator Crapo. Help the Federal budget. Could you come up 
with about $470 billion?
    [Laughter.]
    Mr. Kennamer. That is a little beyond our means, Senator.
    Senator Crapo. OK; well, first of all, as we conclude, I 
want to thank this panel for your outstanding testimony as 
well. Each of our panels today have provided outstanding 
testimony, not only their presentations today but their written 
testimony, and we want to thank you for the time and effort 
that you have put into this. It has been very helpful to us.
    I hope that--actually, I wish everybody in America was 
watching today so that they could understand the kinds of 
issues that we are dealing with and understand the fact that we 
have identified some solutions that can move forward. If they 
did understand it, we would be able to go forward and expand 
the Act and reach more acres and do even more. Ultimately, we 
will be able to do so.
    With that, I want to just again thank all of the witnesses 
and again, give a special thanks to Senator Lincoln. She 
stepped up right there at the beginning and worked hard on 
making this all happen.
    This hearing is adjourned.
    [Whereupon, at 12:01 p.m., the Subcommittee adjourned.]
      
=======================================================================


                            A P P E N D I X

                             June 24, 2004



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T4732.001

[GRAPHIC] [TIFF OMITTED] T4732.002

[GRAPHIC] [TIFF OMITTED] T4732.003

[GRAPHIC] [TIFF OMITTED] T4732.004

[GRAPHIC] [TIFF OMITTED] T4732.005

[GRAPHIC] [TIFF OMITTED] T4732.006

[GRAPHIC] [TIFF OMITTED] T4732.007

[GRAPHIC] [TIFF OMITTED] T4732.008

[GRAPHIC] [TIFF OMITTED] T4732.009

[GRAPHIC] [TIFF OMITTED] T4732.010

[GRAPHIC] [TIFF OMITTED] T4732.011

[GRAPHIC] [TIFF OMITTED] T4732.012

[GRAPHIC] [TIFF OMITTED] T4732.013

[GRAPHIC] [TIFF OMITTED] T4732.014

[GRAPHIC] [TIFF OMITTED] T4732.015

[GRAPHIC] [TIFF OMITTED] T4732.016

[GRAPHIC] [TIFF OMITTED] T4732.017

[GRAPHIC] [TIFF OMITTED] T4732.018

[GRAPHIC] [TIFF OMITTED] T4732.019

[GRAPHIC] [TIFF OMITTED] T4732.020

[GRAPHIC] [TIFF OMITTED] T4732.021

[GRAPHIC] [TIFF OMITTED] T4732.022

[GRAPHIC] [TIFF OMITTED] T4732.023

[GRAPHIC] [TIFF OMITTED] T4732.024

[GRAPHIC] [TIFF OMITTED] T4732.025

[GRAPHIC] [TIFF OMITTED] T4732.026

[GRAPHIC] [TIFF OMITTED] T4732.027

[GRAPHIC] [TIFF OMITTED] T4732.028

[GRAPHIC] [TIFF OMITTED] T4732.029

[GRAPHIC] [TIFF OMITTED] T4732.030

[GRAPHIC] [TIFF OMITTED] T4732.031

[GRAPHIC] [TIFF OMITTED] T4732.032

[GRAPHIC] [TIFF OMITTED] T4732.033

[GRAPHIC] [TIFF OMITTED] T4732.034

[GRAPHIC] [TIFF OMITTED] T4732.035

[GRAPHIC] [TIFF OMITTED] T4732.036

[GRAPHIC] [TIFF OMITTED] T4732.037

[GRAPHIC] [TIFF OMITTED] T4732.038

[GRAPHIC] [TIFF OMITTED] T4732.039

[GRAPHIC] [TIFF OMITTED] T4732.040

[GRAPHIC] [TIFF OMITTED] T4732.041

[GRAPHIC] [TIFF OMITTED] T4732.042

[GRAPHIC] [TIFF OMITTED] T4732.043

[GRAPHIC] [TIFF OMITTED] T4732.044

[GRAPHIC] [TIFF OMITTED] T4732.045

[GRAPHIC] [TIFF OMITTED] T4732.046

[GRAPHIC] [TIFF OMITTED] T4732.047

[GRAPHIC] [TIFF OMITTED] T4732.048

[GRAPHIC] [TIFF OMITTED] T4732.049

[GRAPHIC] [TIFF OMITTED] T4732.050

[GRAPHIC] [TIFF OMITTED] T4732.051

[GRAPHIC] [TIFF OMITTED] T4732.052

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             June 24, 2004



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T4732.053

[GRAPHIC] [TIFF OMITTED] T4732.054

[GRAPHIC] [TIFF OMITTED] T4732.055

[GRAPHIC] [TIFF OMITTED] T4732.056

[GRAPHIC] [TIFF OMITTED] T4732.057

[GRAPHIC] [TIFF OMITTED] T4732.058

[GRAPHIC] [TIFF OMITTED] T4732.059

[GRAPHIC] [TIFF OMITTED] T4732.060

[GRAPHIC] [TIFF OMITTED] T4732.061

                                 <all>

</pre></body></html>
